<html>
<title> - CUTTING EPA SPENDING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                          CUTTING EPA SPENDING

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 12, 2011

                               __________

                           Serial No. 112-95



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-567                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         JAY INSLEE, Washington
CHARLES F. BASS, New Hampshire       TAMMY BALDWIN, Wisconsin
PHIL GINGREY, Georgia                MIKE ROSS, Arkansas
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana              Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

              Subcommittee on Oversight and Investigations

                         CLIFF STEARNS, Florida
                                 Chairman
LEE TERRY, Nebraska                  DIANA DeGETTE, Colorado
SUE WILKINS MYRICK, North Carolina     Ranking Member
JOHN SULLIVAN, Oklahoma              JANICE D. SCHAKOWSKY, Illinois
TIM MURPHY, Pennsylvania             MIKE ROSS, Arkansas
MICHAEL C. BURGESS, Texas            KATHY CASTOR, Florida
MARSHA BLACKBURN, Tennessee          EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         GENE GREEN, Texas
PHIL GINGREY, Georgia                DONNA M. CHRISTENSEN, Virgin 
STEVE SCALISE, Louisiana                 Islands
CORY GARDNER, Colorado               JOHN D. DINGELL, Michigan
H. MORGAN GRIFFITH, Virginia         HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     1
    Prepared statement...........................................     4
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     9
    Prepared statement...........................................    11
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    13
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    13
Hon. John Sullivan, a Representative in Congress from the State 
  of Oklahoma, opening statement.................................    14
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    14

                               Witnesses

Barbara J. Bennett, Chief Financial Officer, Environmental 
  Protection Agency..............................................    17
    Prepared statement...........................................    19
    Answers to submitted questions...............................   101
    Additional responses for the record..........................   112
Arthur A. Elkins, Jr., Inspector General, Environmental 
  Protection Agency..............................................    23
    Prepared statement...........................................    25
Melissa Heist, Assistant Inspector General for Audit, 
  Environmental Protection Agency \1\............................
David C. Trimble, Director, Natural Resources and Environment, 
  Government Accountability Office...............................    34
    Prepared statement...........................................    36

                           Submitted Material

Letter, dated September 15, 2011, from Mr. Upton and Mr. Stearns 
  to Lisa Jackson, Administrator, Environmental Protection 
  Agency, submitted by Mr. Stearns...............................    78
Letter, dated October 11, 2011, from Barbara J. Bennett, Chief 
  Financial Officer, Environmental Protection Agency, to Mr. 
  Stearns, submitted by Mr. Stearns..............................    85
Report, ``Audit of EPA's Fiscal 2010 and 2009 Consolidated 
  Financial Statements,'' dated November 15, 2010, Office of 
  Inspector General, Environmental Protection Agency, submitted 
  by Mr. Stearns.................................................    91

----------
\1\ Ms. Heist did not offer a statement for the record.


                          CUTTING EPA SPENDING

                              ----------                              


                      WEDNESDAY, OCTOBER 12, 2011

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:34 a.m., in 
room 2322, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman of the subcommittee) presiding.
    Members present: Representatives Stearns, Terry, Sullivan, 
Burgess, Blackburn, Bilbray, Scalise, Gardner, Griffith, 
Barton, DeGette, Castor, Green, Christensen, and Waxman (ex 
officio).
    Staff present: Carl Anderson, Counsel, Oversight; Mike 
Gruber, Senior Policy Advisor; Todd Harrison, Chief Counsel, 
Oversight/Investigations; Kirby Howard, Legislative Clerk; 
Andrew Powaleny, Press Assistant; Krista Rosenthall, Counsel to 
Chairman Emeritus; Alan Slobodin, Deputy Chief Counsel, 
Oversight; Sam Spector, Counsel, Oversight; Peter Spencer, 
Professional Staff Member, Oversight; Kristin Amerling, 
Democratic Chief Counsel and Oversight Staff Director; Alvin 
Banks, Democratic Investigator; Phil Barnett, Democratic Staff 
Director; Alison Cassady, Democratic Senior Professional Staff 
Member; Brian Cohen, Democratic Investigations Staff Director 
and Senior Policy Advisor; and Anne Tindall, Democratic 
Counsel.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning, everybody.
    And the Subcommittee on Oversight and Investigations will 
convene. We welcome our witnesses.
    My colleagues, we convene this hearing, the second in our 
series of hearings on the line-by-line review of the Federal 
budget.
    Today we will examine how the Environmental Protection 
Agency has put into practice the President's repeated 
commitment to conduct a line-by-line review of the Federal 
budget. The goal of this pledge is to eliminate unnecessary, 
duplicative, or wasteful government programs to cut costs and 
do more with less. This hearing aims to determine the results 
of EPA's efforts to cut spending and to help EPA find more 
spending cuts and savings for all Americans.
    Less than a month ago, on September 22, EPA Administrator 
Lisa Jackson testified before this subcommittee on EPA's 
regulatory planning, analysis, and major actions. We remain 
very concerned over the impact on jobs and our economy from new 
regulations that are issued and proposed every day by the EPA.
    That said, the EPA is also an important public health 
regulatory agency which has contributed to the tremendous 
improvements in clean air, safe drinking water, and 
environmental quality over the past 40 years. However, over the 
past two decades, the Agency has become an $8 billion-plus 
agency with about 18,000 employees around this Nation.
    Yet with the size of the Federal deficit and long-term 
fiscal challenges, we must ensure that EPA meets its core 
mission at lower cost. Indeed, Congress has a constitutionally 
mandated responsibility to oversee the annual budgetary process 
affecting agencies under their jurisdiction.
    We recognize that executive branch agencies are not alone 
in their responsibility for having created many of the programs 
that have given rise to our ballooning deficit. For its part, 
this committee must remain deeply and regularly engaged with 
the agencies within its jurisdiction, including EPA, as they 
define their priorities, identify their needs, and set their 
goals for the years ahead.
    Today we look at the actual results of the EPA's efforts 
thus far to meet the President's pledge to comb through the 
Federal budget line by line cutting spending. We are aware of 
several initiatives related to that worthy goal, but what 
measurable results have been achieved? For example, the 
committee has learned from an OMB document that EPA responded 
to the President's April 2009 instruction to Cabinet members to 
identify within 90 days at least $100 million in aggregate cuts 
to their administrative budgets by proposing the ``energy 
efficient lighting project,'' that is, changing light bulbs in 
EPA's office buildings. EPA anticipated the annual savings of 
that pilot project to be de minimis, although it claims the 
initiative could lead to savings over the long run.
    Now, while EPA claims to have implemented additional cost-
saving efforts since that time, they did not provide to the 
committee the specifics on what actions were taken or, indeed, 
how much money was actually saved.
    To learn more about EPA's efforts, we will take testimony 
today from the Inspector General of EPA, Arthur Elkins; and the 
director of natural resources and environment at GAO, David 
Trimble. These individuals and their staffs have conducted 
rigorous oversight and audits of EPA for many years.
    The GAO and the EPA Inspector General have frequently 
identified areas where EPA can improve its internal controls, 
its management, and its performance measures, all to cut costs 
or get more bang for the buck. Their reports address concerns 
about how effectively and wisely EPA uses its resources to meet 
its mission. Their work, as we will hear this morning, 
identifies problems and recommends improvements in EPA's 
reporting of spending, such as the money it obligates through 
grants, and EPA's ability to track whether its employees are 
being used effectively to meet its core mission, and even in 
EPA's knowledge about duplicative and unnecessary facilities 
around this country.
    As we will hear, there is still much room for improvement. 
For example, the EPA's budget justification documents do not 
describe the amount of potentially millions of dollars of 
unspent money, known as deobligated and recertified funding, 
that is available for new obligations. We say the word million, 
but it is actually billions. Such information could be useful 
to Congress because of the availability of recertified amounts 
that could partially offset the need for new funding.
    So, my colleagues, today I intend to inquire of them as to 
what the EPA has done thus far and what remains to be done. For 
that reason, the subcommittee also welcomes Barbara Bennett, 
the chief financial officer of EPA. We hope that she will be 
able to address the substance of the Inspector General's and 
GAO's outstanding concerns. The subcommittee, and the committee 
as a whole, is committed to working with the EPA to ensure that 
it has the tools it needs to realize these aims and ensure that 
it is a trustworthy custodian of hard-earned American taxpayer 
dollars.
    Today's hearing can be a good start to help deal more 
effectively with the enormous challenge of getting Federal 
spending under control. I look forward to revisiting this 
subject with the EPA next year, following submission of the 
President's budget.
    With that, my opening statement is done, and I recognize 
the ranking member, Mr. Waxman, for 5 minutes.
    [The prepared statement of Mr. Stearns follows:]

    [GRAPHIC] [TIFF OMITTED] T4567.001
    
    [GRAPHIC] [TIFF OMITTED] T4567.002
    
    [GRAPHIC] [TIFF OMITTED] T4567.003
    
    [GRAPHIC] [TIFF OMITTED] T4567.004
    
    [GRAPHIC] [TIFF OMITTED] T4567.005
    
OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman and Ms. 
DeGette, for allowing me to go first with this opening 
statement.
    Today we are looking at EPA's budget. It is a lean one for 
an agency with so many crucial responsibilities. Although I 
think if the Republicans get their way, there will be no reason 
for the Agency because we will have no environmental laws 
anymore.
    In February of this year, the President submitted his 
proposed budget for fiscal year 2012, requesting $8.9 billion 
for EPA. That is a 13 percent decrease over the fiscal year 
2010 enacted levels. The President had to make some hard 
choices in this budget. The President proposed cutting almost 
$1 billion from the clean water and drinking water State 
revolving funds, which help States improve municipal wastewater 
and drinking water systems. He proposed cutting $125 million 
from the Great Lakes Restoration Initiative, and $70 million 
from the Superfund toxic waste cleanup program. The 
administration also targeted several categories of 
administrative spending at EPA to achieve $40 million in 
additional savings.
    Now some of these cuts are excessive. The drinking water 
State revolving fund should be getting an increase because it 
makes investments in infrastructure that create jobs. Thus the 
notion that EPA is not sacrificing its fair share is false.
    Despite these painful cuts, EPA has set ambitious goals for 
this fiscal year, taking action on climate change--well, some 
people don't think they ought to do that; improving air 
quality--well, a lot of Members don't seem to think that's a 
good idea; protecting American waters--well, the American 
people believe in that, but a lot of the Republicans don't; 
ensuring the safety of chemicals; preventing pollution; and 
enforcing America's environmental laws. Those are still the 
law, and they have continued to be the law. And therefore, EPA 
has a responsibility to enforce them and the American people 
support that.
    These are important objectives that benefit every American 
in every State across the country. Americans know that their 
families' health and quality of life depend on a clean 
environment. They know we need a strong EPA to stop polluters 
from poisoning our land, our air, and our water.
    Today we'll hear that EPA should be doing more to squeeze 
out extra savings. While I am sure EPA could find additional 
reductions and efficiencies along the margins, I am equally 
sure that the bill--that still won't be enough for my 
Republican colleagues. Their goal is not a careful line-by-line 
review of the budget. Their goal is to prevent EPA from 
requiring dirty power plants, chemical plants, oil refineries, 
and other large industrial sources to stop polluting the air 
with toxic mercury and other dangerous emissions. That is what 
we have been fighting on the floor about over the last several 
weeks.
    The Republicans' approach to EPA's budget is less about 
targeted reductions and more about slash-and-burn politics. The 
Republican budgets we have seen this year are the most sweeping 
and reckless assault on health and the environment that we have 
seen in decades.
    The fiscal year 2012 Interior appropriations bill that 
stalled in the House late this summer would slash EPA's budget 
to $7.1 billion, which is 20 percent less than the President 
requested. This would deny the Agency the resources it needs to 
carry out the Clean Air Act, the Clean Water Act, the Safe 
Drinking Water Act and other critical public health 
protections.
    But that is not all. Every week we consider another bill on 
the House floor that stops EPA from doing its job to protect 
our environment. In fact, the House has voted 83 times this 
year to undermine the EPA. In total, the House has voted 159 
times to undermine environmental protections. If the 
Republicans had their way, the Clean Air Act and the Clean 
Water Act would be gutted, and the EPA would be rendered 
powerless to keep our air clean enough to breathe and our water 
safe enough to drink.
    I am glad we have EPA's chief financial officer here today, 
and I look forward to her testimony. She will be able to tell 
us what the impact of the Republicans' approach to EPA's budget 
would be on her agency and for public health and the 
environment. It is not a budget that is good for our 
environment, our health, or American families. And that is my 
comment on this hearing and the Republican agenda.
    And because I have 20 seconds and I used my time frugally, 
I yield that back.
    [The prepared statement of Mr. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T4567.006
    
    [GRAPHIC] [TIFF OMITTED] T4567.007
    
    Mr. Stearns. The gentleman yields back.
    The gentleman from Texas, Mr. Barton, is recognized for 2 
minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. I thank the chairman.
    Former Chairman Waxman and I live in different worlds. We 
are here to talk about EPA's budget. That is a legitimate role 
of this subcommittee. We have a balance sheet that has been 
prepared. It shows their total liabilities and assets are about 
$23 billion. Between fiscal year 2009 and 2010, it shows a 
decrease of about $1 billion, which would be about 4 percent. 
That is not draconian.
    My good friend from California would have you believe that 
we want to eliminate the Environmental Protection Agency and 
eliminate all environmental laws. Nothing is further from the 
truth. I have voted for all the major environmental laws since 
I have been in Congress, and I voted to pass budgets to 
implement them and to enforce them.
    I have a sister who is an enforcement attorney at EPA in 
Dallas with close to 100 percent success rate in enforcing laws 
that some people try to get around.
    What we have a debate about, Mr. Chairman, is an EPA under 
the Obama administration that seems interested in pushing 
everything to the limit, that seems interested in issuing 
regulations that really don't have a sound basis in science or 
in fact, that seem to be more for political purposes than they 
do for environmental protection purposes.
    My good friend from California apparently doesn't believe 
that any of the laws that he and I have worked together to pass 
in the last almost 30 years have had any impact at all and that 
the only thing that is protecting the American people is 
pending additional EPA regulation.
    Mr. Chairman, in my opinion, nothing could be further from 
the truth. And what Republicans in this Congress are attempting 
to do is actually shine the light of transparency on what is 
really happening at the EPA, where the money is going and 
perhaps, just perhaps, how it could be better spend.
    With that, Mr. Chairman, I would yield back.
    Mr. Stearns. The gentleman yields his 2 minutes.
    The gentlelady from Tennessee, Mrs. Blackburn, is 
recognized for 2 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman.
    I have come to believe that this administration's view of 
the economy can be summed up succinctly: If it moves, tax it; 
if keeps moving, regulate it; if it stops moving, subsidize it. 
And those are timeless words from former President Reagan, and 
they couldn't be more appropriate today, as we look at the 
tsunami of government spending and regulations, and much of 
that is coming from the EPA.
    Many of the complaints we hear in our district are about 
the way EPA handles their rules, regulations, and spending. And 
today I hope that we can kind of uncover what Administrator 
Jackson has done to truly reform the budget process in the line 
by line.
    I had a quote she gave on February 27, 2009. It was in an 
interview and she stated, ``As far as I understand the budget 
process, I can't tell you what EPA's budget will be from year 
to year.'' That one concerned me. And I read it a few times and 
looked at it. And with that statement, I think that she clearly 
laid out why we need to practice appropriate oversight, why we 
need to go through this budget line by line to look for an 
opportunity to help EPA provide a level of certainty, reduce 
waste, and force the Agency to set priorities.
    So I thank all of our witnesses who are with us today. As 
you all are aware, we have another hearing.
    And with that, I yield back the balance of my time.
    Mr. Stearns. The gentlelady yields back.
    The gentleman, Mr. Sullivan, is recognized for 1 minute.

 OPENING STATEMENT OF HON. JOHN SULLIVAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Sullivan. Chairman Stearns, thank you for holding this 
important hearing today on cutting the EPA's spending.
    In September 2009, the Obama administration announced plans 
to implement a line-by-line, page-by-page review of the Federal 
budget. And he tasked his Cabinet members to find savings. Here 
we are, 2 years later, and the President has still not done 
what he promised with the budget. The simple fact is, the 
Federal Government is broke, and we are in a fiscal crisis. We 
must make extraordinary efforts to cut spending, eliminate 
waste, and find savings, which is why this oversight hearing is 
so important. EPA has cut some spending as part of a routine 
annual budget and appropriations process but has not taken any 
real extraordinary steps to cut spending. We know that EPA has 
upwards of $13.3 billion in unexpended appropriations and both 
the GAO and the Inspector General say that EPA lacks basic 
internal controls and data on employee workloads and how it 
spends on its payroll. Thanks in advance to our panel before 
us, and it is my hope that our discussion here today sheds 
light on the EPA's budget situation.
    I yield back the balance of my time.
    Mr. Stearns. The gentleman yields back. The chairman 
recognizes the ranking member, the gentlelady from Colorado, 
for 5 minutes.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman, for 
recognizing me.
    This is the second in a hearing that the subcommittee 
launched last week about the administration's budget review 
process. When I went home to my district over the weekend, I 
was telling people about the hearing last week, and they really 
couldn't believe it because it was really one of the silly--
with all due respect, it was one of the silliest hearings that 
I have seen in my 15 years in Congress. It started out with the 
majority playing a video of the President promising a line--put 
little clips showing him promising a line-by-line budget 
review, which then I thought maybe that was figurative, but in 
fact, literally then members of this subcommittee spent the 
whole time talking about, did the President actually personally 
review the budget line by line?
    I don't really think that is what we need to be looking at, 
and I would hope the majority doesn't think so either. Because 
what we really need to look at is the budget process of these 
various agencies and whether or not they have conducted an 
efficient and effective budget review and whether improvements 
can be made in this process. I think that that is an important 
oversight responsibility for this subcommittee for every 
agency, not just the EPA. And so I think that those are 
important questions that should be asked of all of these 
witnesses.
    And so to that end, let's look at a few key facts about the 
EPA budget review process as I understand it. Right here--this 
large notebook--is what is known as the Agency budget 
justifications, which the EPA prepares and provides to the 
Appropriations Committee each year. This mammoth set of 
documents reflects the detailed process in which the EPA 
engages to produce a budget proposal. In this document, the 
Agency provides a detailed explanation of the funding levels 
requested for each EPA program area.
    The EPA justifications document results from a multistep 
review process, as I understand it, in which the EPA program 
staff develop a budget proposal; the EPA chief financial 
officer reviews the proposal; EPA senior leadership meets to 
discuss overall funding level requests; EPA submits a proposal 
to OMB; EPA negotiates with OMB over the proposal; and OMB 
sends back an approved budget.
    And as in previous years of the Obama administration, the 
review process at the EPA has resulted in an administration 
budget proposal for the EPA that requests increases in funding 
for some programs and decreases funding for others. And that is 
as it should be. And I would assume that that involves a line-
by-line review of these budget requests by the people in the 
Agency who are responsible for those parts of those budgets.
    But you can understand our concern about cuts to the EPA 
budget because if you just look and see what Congress has 
already voted to do, we are not just talking about, should we 
have new regulations; in H.R. 1 and in other votes in this 
Congress, we have seen substantial cuts to enforcement for 
existing environmental review programs. In fact, they are some 
of the most anti-environmental votes that I have seen. In the 
first 10 months of this Congress, we have had 159 floor votes 
to undermine protection of the environment; EPA programs to 
reduce toxic mercury pollution, reduce greenhouse gas 
emissions, and make our Nation's vehicles more efficient and 
reduce gas costs for consumers, and on and on.
    I have asked the Democratic staff to prepare a list of the 
existing EPA agencies and regulations which Mr. Barton and 
others say they support which have had drastic proposals 
slashed budgets for enforcement in previous votes of this 
Congress which I don't think are probably born out by the 
evidence.
    And so here is the thing, I think that the public values 
clean water and clean air. I think they value strong 
environmental enforcement, and furthermore, I think these 
environmental laws produce health, economic, and environmental 
benefits that actually increase our budget. In fact, some 
estimates have shown $1.3 trillion in 2010. By 2020, the 
benefits are projected to reach $2 trillion annually, 
outweighing estimated costs by more than 30 to one.
    Overall, in the three decade period from 1990 to 2020, the 
Clean Air Act is estimated to deliver $12 trillion worth of 
benefits, plus a host of additional health and welfare benefits 
that cannot be monetized. And so if you look at the EPA 
spending compared to the enormous impact on public health, 
EPA's proposed 2012 budget is just 0.06 percent of the Federal 
Government's total debt, 0.26 percent of total spending, and 
0.69 percent of the Federal deficit. If you eliminated the EPA 
altogether, it wouldn't even be a blip in our Nation's budget. 
But the costs that we would pay in health and in other types of 
spending would be astronomical. I think we need to have savings 
in the EPA just like every other agency, but I think that this 
fixation we have is wrong, and we have got to stop it.
    Mr. Stearns. The gentlelady completes her opening 
statement.
    And let me introduce our witnesses before we put them under 
oath. We have the Honorable Barbara J. Bennett, chief financial 
officer, U.S. Environmental Protection Agency; the Honorable 
Arthur A. Elkins, Jr., Inspector General, who is accompanied by 
Melissa Heist, assistant inspector general for audit, U.S. 
Environmental Protection Agency; and we have Mr. David C 
Trimble, director of natural resources and environment, U.S. 
Government Accountability Office.
    Welcome to you folks.

  STATEMENTS OF BARBARA J. BENNETT, CHIEF FINANCIAL OFFICER, 
    ENVIRONMENTAL PROTECTION AGENCY; ARTHUR A. ELKINS, JR., 
INSPECTOR GENERAL, ENVIRONMENTAL PROTECTION AGENCY, ACCOMPANIED 
   BY MELISSA HEIST, ASSISTANT INSPECTOR GENERAL FOR AUDIT, 
    ENVIRONMENTAL PROTECTION AGENCY; AND DAVID C. TRIMBLE, 
    DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Stearns. You folks are aware that the committee is 
holding an investigative hearing. And when doing so, it has had 
the practice of taking testimony under oath.
    Do you have any objection to testifying under oath?
    No. The chair then advises you that under the Rules of the 
House and rules of the committee, you are entitled to be 
advised by counsel.
    Do you desire to be advised by counsel during your 
testimony today?
    Mr. Elkins. No.
    Mr. Stearns. No. In that case, please rise and raise your 
right hand. I will swear you in.
    [Witnesses sworn.]
    Mr. Stearns. You are now under oath and subject to the 
penalties set forth in Title XVIII, Section 1001, of the United 
States Code.
    You may now each give a 5-minute summary of your written 
statement.
    Ms. Bennett, you shall start. And just turn your mike on.

                STATEMENT OF BARBARA J. BENNETT

    Ms. Bennett. Thank you.
    Good morning, Chairman Stearns, Ranking Member DeGette, and 
members of the subcommittee. I am pleased to be here to discuss 
with you the important issue of ensuring the most effective and 
efficient use of taxpayer dollars.
    As you mentioned in your letter to Administrator Jackson, 
President Obama has stated several times his intent that his 
administration would review the Federal budget page by page, 
line by line, and eliminating those programs we don't need, and 
insisting that those we do operate in a sensible and cost-
effective way.
    While we have always worked diligently with regard to our 
budget formulation process at EPA, the President's directive 
has given us an opportunity to look even more closely at our 
budget process to ensure that we are achieving maximum 
efficiencies.
    To address how we have, in fact, been pursuing this close 
scrutiny of our budget, I would like to take a moment to 
discuss EPA's budget over the last decade or so. Apart from the 
targeted increases to the State revolving funds and for 
programs funded under the Recovery Act of 2009, EPA's budget 
has not grown significantly over the last decade. Even 
including the increase to the SRS in fiscal year 2010, between 
fiscal year 2000 and the fiscal year 2012 President's budget 
request, the Agency has experienced a compound annual growth 
rate of just 1.4 percent, a rate less than that of inflation.
    During this 10-year time frame, our responsibilities have 
grown, as did our costs for such necessities as rent, 
utilities, security, and payroll. For more than a decade, we at 
EPA have needed to make cuts to existing programs to find 
resources to fund emerging priorities.
    The work of the Agency is reviewed at the appropriation, 
program project and, where established, the subprogram project 
levels. This is the budget structure developed in concert with 
OMB and with Congress. Within this framework, the Agency 
considers the progress made towards its annual and long-term 
goals and priorities as articulated in our strategic plan and 
emerging needs.
    Meeting existing commitments and planning for future needs 
cannot be done without considering opportunities to redirect 
resources to higher priorities and reduce overall budget 
levels, as required. In making these reductions, we have 
carefully considered guidance from the administration and 
Congress by looking first to less effective, potentially 
overlapping activities for reductions or eliminations. However, 
the need to find reductions and fund higher priorities also 
means that at times worthy projects get cut.
    During this administration, we have had to make some 
difficult decisions to eliminate or reduce programs. In our 
fiscal year 2010 budget request, we included a $10 million cut 
to the U.S.-Mexico border program. In fiscal year 2011, we 
proposed over $30 million in reductions to homeland security 
programs. We also reduced our travel budget by nearly 40 
percent over the prior year. In fiscal year 2012, in our 
request, we have included a reduction of over $6 million from 
indoor air and radiation programs as well as approximately $10 
million in efficiencies in our agency-wide IT programs.
    Over the past several years, we have also had success in 
finding efficiencies that enable us to maximize the resources 
available to core programs. Some examples include efforts to 
find savings in rent and utilities through space consolidation. 
Between fiscal year 2006 and 2011, we have released 
approximately 375,000 square feet of space at headquarters and 
facilities nationwide, resulting in cumulative annual rent 
avoidance of over $12 million. These are just a few examples of 
some of the choices we have made and efficiencies we have 
achieved as we reviewed our programs in developing EPA's 
budgets to ensure wise use of resource dollars and as we seek 
to do our part to reduce the deficit while maintaining 
effective protections for human health and the environment.
    Mr. Chairman, I would like to thank you again for inviting 
me to testify about the Agency's effort to apply close scrutiny 
to our budget, and I hope I have conveyed to you the 
seriousness with which we at EPA take our responsibility to 
ensure that all funds are used prudently so that we can 
continue to effectively fulfill our mission of protecting human 
health and the environment, especially during these times of 
tight fiscal constraint. And with that, I look forward to 
responding to your questions.
    [The prepared statement of Ms. Bennett follows:]

    [GRAPHIC] [TIFF OMITTED] T4567.008
    
    [GRAPHIC] [TIFF OMITTED] T4567.009
    
    [GRAPHIC] [TIFF OMITTED] T4567.010
    
    [GRAPHIC] [TIFF OMITTED] T4567.011
    
    Mr. Stearns. I thank the gentlelady.
    Mr. Elkins, you are recognized for 5 minutes.

                 STATEMENT OF ARTHUR A. ELKINS

    Mr. Elkins. Thank you. Good morning, Chairman Stearns, 
Ranking Member DeGette and members of the subcommittee. I am 
Arthur Elkins, Jr., Inspector General of the U.S. Environmental 
Protection Agency. I also serve as the Inspector General of the 
U.S. Chemical Safety and Hazard Investigation Board. I am 
accompanied by Melissa Heist, Assistant Inspector General for 
Audit.
    I am pleased to appear before you today to discuss recent 
work we have done that identifies opportunities for cost 
savings and greater efficiencies within the Agency. I submitted 
a statement for the record which details this work. This 
morning, I want to focus my remarks on two areas: Management of 
the Agency's human capital and EPA facilities. Over the last 5 
years, EPA has averaged a little over 18,000 positions with 
annual payroll costs of approximately $2 billion. For an 
organization to operate efficiently and effectively, it must 
know what its workload is. The main objectives of assessing and 
predicting workload are to achieve an evenly distributed, 
manageable workload and to accurately determine the resource 
levels needed to carry out the work.
    We have issued three reports since 2010 examining how the 
Agency manages its workload and workforce levels. We have found 
that it has not collected comprehensive workload data or 
conducted workload analyses across EPA in about 20 years. The 
Agency does not require program offices to collect and maintain 
workload data. Without sufficient workload data, program 
offices are limited in their ability to analyze their workloads 
and accurately estimate resource needs. Therefore, the Agency 
must base budget decisions primarily on subjective 
justifications at a time when budgets continue to tighten and 
data-driven decisions are needed.
    We also found that the Agency's policies and procedures do 
not include a process for determining resource levels based on 
workload, as prescribed by OMB. As a result, the Agency cannot 
demonstrate that it has the right number of resources to 
accomplish its mission.
    Finally, we have found that the Agency does not have a 
coherent program of position management to assure the efficient 
and effective use of its workforce. Position management 
provides the operational link between human capital goals and 
the placement of qualified individuals into authorized 
positions. Without an agency-wide position management program, 
EPA leadership lacks reasonable assurance that it is using 
personnel in an effective and efficient manner to achieve 
mission results.
    We have made several recommendations to address these 
findings. While the Agency has taken action to study workforce 
issues and update their budget guidance, most of our 
recommendations remain unresolved and resolution efforts are in 
progress.
    Regarding EPA's space and facilities, in fiscal year 2009, 
we collected data on staffing levels and total costs for EPA 
facilities in response to a request from the House 
Appropriations Committee. Based on EPA data, we reported at the 
time that EPA had more than 18,000 employees in 140 locations 
across the country. These locations cost approximately $300 
million annually, which included rent or leases, utilities, and 
security costs. EPA headquarters accounted for $100 million, 
the largest portion of those costs. We also reported that EPA 
had 86 locations with five or fewer employees, at a cost of 
$2.25 million. Many of these offices were actually staffed by 
only one or two people.
    We made no recommendations because the request was limited 
to data collection. However, we do believe EPA should examine 
its real estate portfolio for possible cost savings. Facilities 
data like we collected would assist EPA in determining whether 
it should shrink its footprint either through consolidating or 
eliminating facilities. We will soon begin a project this 
fiscal year that will assess EPA facility occupancy to 
determine whether EPA is maintaining optimal utilization of 
existing space in its location and whether opportunities exist 
to reduce facility costs, which will also assist EPA in its 
decision making.
    In closing, EPA must find ways to better manage and utilize 
its resources and improve its operational efficiencies in this 
tight budget environment. I believe the OIG has added value by 
making numerous specific recommendations to the Agency over the 
years to help address these issues, many of which it has agreed 
to implement. Going forward, the Agency will need to intensify 
its efforts to control the cost of, and maximize the benefits 
from, the resources entrusted to it. We will continue to work 
with the Agency to further identify areas needing attention.
    Thank you for the opportunity to testify before you today. 
I would be pleased to answer any questions the subcommittee may 
have.
    [The prepared statement of Mr. Elkins follows:]

    [GRAPHIC] [TIFF OMITTED] T4567.012
    
    [GRAPHIC] [TIFF OMITTED] T4567.013
    
    [GRAPHIC] [TIFF OMITTED] T4567.014
    
    [GRAPHIC] [TIFF OMITTED] T4567.015
    
    [GRAPHIC] [TIFF OMITTED] T4567.016
    
    [GRAPHIC] [TIFF OMITTED] T4567.017
    
    [GRAPHIC] [TIFF OMITTED] T4567.018
    
    [GRAPHIC] [TIFF OMITTED] T4567.019
    
    [GRAPHIC] [TIFF OMITTED] T4567.020
    
    Mr. Stearns. Mr. Trimble, you are recognized for 5 minutes.

                 STATEMENT OF DAVID C. TRIMBLE

    Mr. Trimble. Chairman Stearns, Ranking Member DeGette, and 
members of the subcommittee, I am pleased to be here today to 
discuss GAO's work on management challenges facing EPA as well 
as observations on the Agency's budget.
    As you know, EPA operates in a highly complex and 
controversial regulatory arena and its policies and programs 
affect virtually all segments of the economy, society, and the 
government.
    My testimony draws on prior GAO work and focuses on three 
areas: The management of EPA's workload, workforce, and real 
property; coordination with other agencies to more effectively 
leverage limited resources; and observations on the Agency's 
annual requests for new budget authority.
    First, in 2010, we reported that the EPA had not 
comprehensively analyzed its workload and workforce since the 
1980s to determine the optimal numbers and distribution of 
staff across the Agency. Rather than establishing a process for 
budgeting and allocating human resources based on the Agency's 
workload, EPA requested funding and staffing through 
incremental adjustments based on historical precedent.
    We recommended that EPA link its workforce plan to its 
strategic plan and establish mechanisms to monitor and evaluate 
its workforce planning efforts. Such efforts could enhance the 
Agency's ability to strategically allocate scarce resources.
    Earlier this year, GAO reported on challenges that EPA 
faces in managing its laboratories, both from a workforce and a 
real property perspective. We reported that EPA operated a 
laboratory system comprised of 37 labs housed in 170 buildings 
and facilities in 30 cities across the Nation. We reported that 
EPA's laboratory activities were managed by 15 different senior 
managers, were largely uncoordinated, and that the Agency did 
not have a comprehensive process for managing its laboratory 
workforce. For example, EPA did not have basic information on 
its laboratory workload or workforce, such as data on the 
number of Federal and contract employees working in its labs.
    This report also identified challenges related to the 
Agency's management of its real property, a government-wide 
challenge that is part of GAO's high-risk series. In 2010, the 
administration directed agencies to speed up efforts to 
identify and eliminate excess properties to help achieve $3 
billion in cost savings by 2012. In July 2010, the EPA told the 
Office of Management and Budget that it did not anticipate 
disposing of any of its laboratories in the near future because 
the facilities were fully used and considered critical to the 
Agency. However, we found that EPA did not have accurate and 
reliable information called for by OMB on the need for the 
facilities, property used, facility condition, and facility 
operating efficiency to inform its determination.
    Second, the nature of EPA's work requires it to coordinate 
and collaborate with other Federal agencies as well as State, 
local, and tribal partners. Our recent work on the Chesapeake 
Bay cleanup and pharmaceuticals in drinking water has shown 
that EPA could do a better job collaborating with these 
partners and in turn better leverage limited resources. In 
2009, we reported that the efforts of EPA and six Federal 
agencies to support drinking water and wastewater projects on 
the U.S.-Mexico border region were ineffective because only one 
of the agencies involved has comprehensively assessed the 
region's needs or had coordinated policies for selecting and 
building projects. We included this issue in our March 2011 
report to Congress concerning Federal programs with duplicative 
goals or activities.
    Third and finally, with respect to the Agency's budget and 
annual requests for budget authority, our past reviews of the 
Agency's budget justification documents have led to two 
recurring observations: First, regarding proposals for new or 
expanded funding, the Agency has not consistently provided 
clear justification for the funds requested or what steps the 
Agency would take to ensure the effective use of the funding.
    Second, over the years, we have focused on the Agency's 
efforts to make use of unliquidated balances or funds that were 
appropriate and obligated but never actually spent. This occurs 
when contracts, grants, or interagency agreements expire with 
some level of funding remaining unspent. We have encouraged EPA 
to quickly identify and recover these funds for other uses, as 
it could decrease the need for new budget authority. While the 
EPA has made progress in recovering these funds, we have 
observed that EPA does not include this information in its 
budget justification documents. We believe that information on 
the reuse of such funds could help Congress in its budget 
deliberations.
    This concludes my prepared statement. I will be pleased to 
answer any questions that you or other members of the 
subcommittee may have.
    [The prepared statement of Mr. Trimble follows:]

    [GRAPHIC] [TIFF OMITTED] T4567.021
    
    [GRAPHIC] [TIFF OMITTED] T4567.022
    
    [GRAPHIC] [TIFF OMITTED] T4567.023
    
    [GRAPHIC] [TIFF OMITTED] T4567.024
    
    [GRAPHIC] [TIFF OMITTED] T4567.025
    
    [GRAPHIC] [TIFF OMITTED] T4567.026
    
    [GRAPHIC] [TIFF OMITTED] T4567.027
    
    [GRAPHIC] [TIFF OMITTED] T4567.028
    
    [GRAPHIC] [TIFF OMITTED] T4567.029
    
    [GRAPHIC] [TIFF OMITTED] T4567.030
    
    [GRAPHIC] [TIFF OMITTED] T4567.031
    
    [GRAPHIC] [TIFF OMITTED] T4567.032
    
    Mr. Stearns. Mr. Trimble, thank you very much.
    I will start with my questions.
    Ms. Bennett, you heard Mr. Trimble from the GAO. Were you 
aware of his report? Yes or no.
    Ms. Bennett. I am aware of most of the reports, yes.
    Mr. Stearns. OK. And has your staff been working on answers 
to some of the items he has talked about and particularly the 
one dealing with unexpended appropriations?
    Ms. Bennett. Yes. In fact, we have been working hard on 
most of what are called the unliquidated obligations.
    Mr. Stearns. OK. You said in your opening statement, you 
also said in your prepared statement, that the President had a 
directive to you to look at item by item, line by line in the 
budget. So, just to be clear, the President asked you to review 
the budget page by page, line by line. Was this a directive 
that you understood?
    Ms. Bennett. This is a directive that we have heard from 
the President and by OMB. We have heard that, although there 
hasn't been an explicit order or explicit guidance. But I am 
familiar with that, obviously, from----
    Mr. Stearns. So you have no written document from anybody 
on what this means to you?
    Ms. Bennett. Well, I have a very good understanding of what 
line by line and page by page means in terms of----
    Mr. Stearns. Would you say that it was a figure of speech? 
Or did it actually mean--the President actually said, ``line by 
line, item by item, page by page, program by program''? He was 
pretty specific. Do you understand that to be literal, or do 
you think that is a figure of speech?
    Ms. Bennett. Well, I wouldn't suppose what the President 
says, but I certainly took it to heart in terms of how we 
approached it.
    Mr. Stearns. Would it be fair to say that you have taken it 
at its literal meaning?
    Ms. Bennett. Well, what we have done is we have had a 
process that goes through----
    Mr. Stearns. So you have actually, procedure-wise. have 
gone item by item, line by line, page by page, program by 
program?
    Ms. Bennett. We have a process that goes through the 
programs and looks at all of our programs in terms of the 
program project level and what we have identified and work with 
both----
    Mr. Stearns. Could I construe that to mean that you are 
actually looking at every page and every line and every item?
    Ms. Bennett. In terms of how the Agency is concerned----
    Mr. Stearns. That is true?
    Ms. Bennett [continuing]. We have staff that goes through 
all aspects of the budget and is able to identify programs and 
the like. So we have worked--as I mentioned, we have worked 
with both OMB and with Congress on what we have----
    Mr. Stearns. You could do that by just going in a broad 
sense. You would have to get into a detailed sense. So your 
prepared statement and your opening statement has confirmed in 
my mind that you didn't consider this a figure of speech, but 
you considered it something that you had to get into the 
details and follow the directive from the President.
    So maybe EPA's look at financial records, such as the 
ledger sheet that I mentioned earlier, page 26 from the EPA 
Inspector General's report on financial statements--and I want 
to give a copy to Ms. Bennett. Did the staff give a copy?
    Ms. Bennett. I have got it.
    Mr. Stearns. OK. If you look at the highlighted line for 
unexpended appropriations, it says $3.3 billion. Do you see 
that one? It is in the bottom there.
    Ms. Bennett. I do.
    Mr. Stearns. OK. Now, EPA's budget is around $8 billion. So 
to see unexpended money that is not obligated, that is just 
sitting there--that amount of money, almost twice, not quite 
twice of your overall budget, to us, obviously that is a very 
large number. So what does that $13.3 billion in unexpended 
appropriations mean in this document that I showed you?
    Ms. Bennett. Mr. Stearns, Mr. Chairman, this is a balance 
sheet from 2010 as compared to 2009. And in 2010, EPA's budget 
was $10.3 billion as well as it had received over $7 billion in 
Recovery Act funding. So the combination of those two, of $17 
billion that would have come through in 2009, in 2010 would be 
reflected here, not the $8 billion that you referenced for this 
year.
    Mr. Stearns. So, you are saying that you got so much money 
that you couldn't spend it all?
    Ms. Bennett. No, that is not what I said at all. What I am 
saying is that it is not reflective of the $8 billion that you 
mentioned.
    Mr. Stearns. Well, the $8 billion is your annual budget.
    Ms. Bennett. For 2010, we are at $8.7.
    Mr. Stearns. OK. So when I look and you have got this 
budget--but you are still not explaining to me how you could 
have $13.3 billion of funds that have not been spent. Where is 
this money--is it money that is in a bank account? Money that 
you can get from the Treasury? What is this money doing? Why 
can't you just give it back to the Treasury and reduce the 
deficit?
    Ms. Bennett. Well, actually, most of our funds go to the 
States and tribal assistance grants, and many of those projects 
are multi-year----
    Mr. Stearns. So you are saying this is all--$13.3 billion 
is obligated funds that you haven't spent yet?
    Ms. Bennett. Most of the funds have been obligated and have 
not been spent.
    Mr. Stearns. How do you know that? Do you have a report 
that you could give us to show how that $13.3 billion is 
detailed in obligations to Indian tribes to--to who else?
    Ms. Bennett. States.
    Mr. Stearns. States, OK.
    Ms. Bennett. States and communities. And for, both for 
water infrastructure----
    Mr. Stearns. I mean, is it obligated from 5 years ago, 2 
years ago, 90 days?
    Ms. Bennett. Well, a lot of them are all obligations. So 
some of them----
    Mr. Stearns. Over what period of time?
    Ms. Bennett. Well, this is a balance sheet which reflects 
cumulative.
    Mr. Stearns. Could it be more than 5 years?
    Ms. Bennett. Well, at the particular time of this balance 
sheet, it could have been, yes.
    Mr. Stearns. Could it be more than 10 years?
    Ms. Bennett. For instance, in 2011, the budget that we 
received--that encompasses the $8.7 billion that I referred 
to--called for a rescission of unobligated--of unobligated----
    Mr. Stearns. OK. I understand. I am going to close.
    I will just ask Mr. Trimble, do you understand what she is 
saying?
    Mr. Trimble. Yes. I believe so. There is always a lag time 
between when money is appropriated and obligated and actually 
spent. So there is a lag through this process. We have not 
looked, or I have not had a chance to look over the balance 
sheet.
    Mr. Stearns. I will close.
    Ms. Bennett, I think for the record we would like to get 
where this obligated fund is in a time-duration milestone so we 
can see if it is money that can be returned to the Treasury or 
that actually you have obligations. So, with that, my questions 
are complete.
    Ms. DeGette. Thank you, Mr. Chairman.
    Going back to this balance sheet, a balance sheet is a 
snapshot in time, as of, in this case, the end of the fiscal 
year for 2010 and 2009.
    Correct, Ms. Bennett?
    Ms. Bennett. Yes, that is correct.
    Ms. DeGette. So I think we are mixing apples and oranges a 
little bit because, as of September 30 of each of those years, 
you have got unexpended appropriations there on that balance 
sheet. But what you are saying is that is--most of that--it is 
not just money that is sitting there from an appropriation that 
could be given back. It is obligated for something, correct?
    Ms. Bennett. That is correct.
    Ms. DeGette. And so what Mr. Stearns and I would like you 
to do is to go back and for each of those fiscal years to make 
a breakdown of that, how much of that was obligated and where 
it was obligated. And for each of those programs, how many--
because it is not the same for every program. It is a different 
time period for which those funds are obligated, correct?
    Ms. Bennett. Right. Correct. Some programs spend the funds 
faster. For instance, the worker infrastructure projects----
    Ms. DeGette. Right. So if you could just supplement your 
testimony with that information, I think that would help us to 
figure out exactly what that number means in terms of funds.
    Ms. Bennett. We would be happy to do that.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Thank you very much.
    Now my second question to you is, there have been some 
suggestions made by both of the other agencies represented here 
today. Have you reviewed those recommendations?
    Ms. Bennett. Just about all of them, yes.
    Ms. DeGette. OK. One recommendation that both the IG and 
the GAO had made was that the EPA review its personnel policies 
and its management policies to make sure that the human 
resources are actually working to achieve the Agency's mission. 
I hate to put words into your mouths, but that's essentially 
it. Have you reviewed those types of recommendations?
    Ms. Bennett. Yes. And I have spoken with both the Inspector 
General and----
    Ms. DeGette. And what is the EPA doing to address those 
recommendations?
    Ms. Bennett. So the workforce and the workload issues are 
two separate issues. They may sound very similar, but they're 
actually different issues. The workload is the amount of work 
that the Agency has to do, and the workforce reflects more like 
skills that are needed.
    Ms. DeGette. Right.
    Ms. Bennett. And might be needed in the future. So what my 
office has done, has led the workload planning. And so we have 
taken into consideration the recommendations from both the 
Inspector General and from GAO, and my office is leading an 
analysis that is really three-pronged in nature. One is 
benchmarking line managers in terms of----
    Ms. DeGette. OK. If you could just shorten up a little 
because I have got a lot more questions and not much time left.
    Ms. Bennett. Sure. We are taking a look to see where we can 
address the recommendations.
    Ms. DeGette. And when are you going to be finished with 
that review so that you can--and having made your own internal 
relations?
    Ms. Bennett. We're finished with one part of it, and we 
should be finished with the second step some time shortly.
    Ms. DeGette. If you can provide the committee with that 
information, that would be helpful as well.
    Now Mr. Elkins, you made a number of observations and 
recommendations. These issues have been systemic in the EPA for 
some number of years, correct?
    Mr. Elkins. That is correct.
    Ms. DeGette. These didn't just rise up in the past couple 
of years, right?
    Mr. Elkins. Based on our findings, that's correct.
    Ms. DeGette. Based on your findings, how long have these 
issues been present at the EPA?
    Mr. Elkins. Well, we have looked at this issue at least 
over the last 3 or 4 years or so.
    Ms. DeGette. OK. Last 3 or 4 years. And you are working 
with Ms. Bennett and her staff to try to address those 
recommendations.
    Mr. Elkins. That is correct.
    Ms. DeGette. OK. And do you believe that they are going to 
address them?
    Mr. Elkins. We have been told that they are actively 
seeking to address them, that is correct.
    Ms. DeGette. And Mr. Trimble, what about you? The issues 
that you identified in your excellent report, how long have 
they been going on in the EPA?
    Mr. Trimble. Well, in regards to the workforce planning, we 
know that the last time a comprehensive plan was done was in 
the 1980s.
    Ms. DeGette. So it is over 20 years that this has been 
going on?
    Mr. Trimble. That is correct.
    Ms. DeGette. And what about the other issues?
    Mr. Trimble. Workload is probably also a longstanding issue 
that crops up also when we do more programmatic focused work as 
well.
    Ms. DeGette. What about the facilities issues? I thought 
that was an interesting issue and one that I think would take 
time to address.
    Mr. Trimble. Well, facilities is a little bit different in 
that GAO has put government-wide facility management and 
Federal real property management on its high-risk list, so a 
government-wide issue in that regard.
    Ms. DeGette. And how long has it been?
    Mr. Trimble. That I believe it is the 2003-2004 time frame.
    Ms. DeGette. OK.
    Mr. Trimble. And the issue I site in the report just came 
out of the work we did this year concerning the laboratories.
    Ms. DeGette. Now, has GAO been working with the EPA to 
address the GAO recommendations?
    Mr. Trimble. We have made recommendations. We have 
discussed those. I know, in regards to workforce, they have--a 
contractor has just completed a study. Booz Allen, I believe, 
is finishing a study. We have not looked at the scope or sort 
of the findings of that work.
    Ms. DeGette. Do you intend to do that?
    Mr. Trimble. I imagine we will end up having follow-on 
work, but nothing is planned at this point.
    Ms. DeGette. OK. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Stearns. The gentleman from Texas is recognized for 5 
minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    Ms. Bennett, how many employees are currently employed at 
the EPA?
    Ms. Bennett. We requested in the 2012 budget just over 
17,200.
    Mr. Barton. 17,200. You mentioned in your prepared 
testimony that the travel budget was reduced by 40 percent last 
year, is that correct?
    Ms. Bennett. Close to it, yes.
    Mr. Barton. OK. Do you know how much was actually spent on 
travel last year?
    Ms. Bennett. In 2011, I don't off the top of my head. I 
will be happy to get back to you.
    Mr. Barton. Do you know how much was----
    Ms. Bennett. I do know what we did with the budget.
    Mr. Barton. Well you have said that you reduced it. It was 
reduced 40 percent. So 40 percent from what?
    Ms. Bennett. In 2010, we had a budget of approximately $60 
million, and so we had reduced it to less than $50, and then we 
have it reduced again to less than $40 million.
    Mr. Barton. So that is in your budget. You don't know what 
was actually spent. But you have gone from $60 million to $40 
million.
    Ms. Bennett. We took a significant cut in 2011.
    Mr. Barton. Do you know what that would be per employee?
    Ms. Bennett. I haven't done the math on a per employee. Not 
everybody travels.
    Mr. Barton. Just roughly, that would be either $2,000 or 
$20,000. It is either $2,000 or $20,000 per employee. That is 
just back-of-the-envelope numbers. Do you know how many 
employees at EPA of these 17,000 have an EPA credit card?
    Ms. Bennett. Have a credit card, an EPA credit card?
    Mr. Barton. Yes.
    Ms. Bennett. I don't know the number of how many.
    Mr. Barton. Do you have an estimate?
    Ms. Bennett. I would have to get back to you on.
    Mr. Barton. Mr. Elkins, do you happen to know that number?
    Mr. Elkins. No, I don't.
    Mr. Barton. Could each of you attempt to get that number, 
the number of employees that have EPA credit cards and the 
credit limit on those credit cards and the amount spent on 
those credit cards in the most recent fiscal year, can y'all do 
that?
    Mr. Elkins. I would be glad to.
    Ms. Bennett. I would be glad to get back to you.
    [The information appears at the conclusion of the hearing.]
    Mr. Barton. Do you happen to know, either one of you, 
whether EPA has ever done an audit of the EPA employees that 
have credit cards?
    Ms. Bennett. I know that we have a process in place within 
the Office of the Chief Financial Officer that makes sure that 
those travel vouchers are looked at and reviewed for 
appropriateness.
    Mr. Barton. Ms. Heist, you look like you want to say 
something.
    Ms. Heist. Thank you, sir. We have done some work. We have 
not to this date identified----
    Mr. Barton. Pull the microphone close to you.
    Ms. Heist. We have done some minimal work in that area. We 
haven't found significant problems. We have looked at all the 
controls in place, and we have found them to be generally 
working well.
    Mr. Barton. When I was subcommittee chairman of this 
subcommittee, we did an audit of the FDA and the number of 
employees that had credit cards. And we found out that there 
were thousands, and we found out that there were no real 
controls, and we found out that one FDA employee purchased a 
Ford Mustang on an FDA credit card. So it might be worthy of 
some investigation because people being people, my guess is 
that lots of folks at EPA have credit cards--and not all, but 
some of them, probably abuse them.
    Ms. Bennett, are you aware of a title 42 program at EPA?
    Ms. Bennett. I am aware of the program.
    Mr. Barton. Do you support that program?
    Ms. Bennett. We have used the program for our highly 
trained and highly skilled scientists that we have primarily in 
our Office of Research and Development.
    Mr. Barton. Are you aware that the EPA union for the 
Washington region is opposing that program?
    Ms. Bennett. I am not aware of that.
    Mr. Barton. They are.
    Do you know what the compliance budget is at EPA?
    Ms. Bennett. The overall----
    Mr. Barton. For enforcement of existing regulations.
    Ms. Bennett. I can certainly access it, sure.
    Mr. Barton. Could either you or Mr. Elkins give us a 
ballpark figure what the compliance enforcement budget is? I 
mean, after all, that is really where the rubber meets the road 
in terms of protecting the environment. We know what the 
general budget is. Do you know, either one of you, what the 
compliance budget or enforcement budget is?
    Ms. Bennett. The Office of Enforcement and Compliance has a 
budget of over $600 million.
    Mr. Barton. $600 million. Is that up or down from the last 
year?
    Ms. Bennett. It is slightly up.
    Mr. Barton. Slightly up. In spite of all these mean-
spirited Republicans who want to, according to my friends on 
the Democratic side, gut the EPA, the real heart of the EPA, 
enforcement and compliance, is up. Is that right?
    Ms. Bennett. We have proposed it to have an increase 
largely due to an initiative that we were redirecting funds 
toward in order to transition from paper reporting to 
electronic reporting in order to reduce burdens.
    Mr. Barton. Well, thank you for an honest answer. My last 
question, and I know my time has expired. I would like for the 
record, Ms. Bennett, to provide the number of enforcement 
actions that EPA has initiated in the last several years and 
the percentage of those enforcement actions that have resulted 
in fines being collected or criminal sentences being applied.
    Ms. Bennett. I would be happy to follow up with you.
    [The information appears at the conclusion of the hearing.]
    Mr. Barton. And if the Inspector General has information, 
we would like for you to provide that also.
    Mr. Elkins. I would be happy to.
    Mr. Barton. Thank you.
    Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentleman.
    The gentlelady from the Virgin Islands is recognized for 5 
minutes.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Before I ask my question, I just wanted to say that I can 
see that from Ms. Bennett's testimony, that despite everything, 
EPA is making a good attempt to respond to the recommendations, 
and they are in the process of addressing issues that have been 
around for a very long time. And I really think you could 
probably do more of that if we didn't keep calling EPA up to 
the Hill every day and asking for report after report. I 
realize we have to do oversight, but I think we are overdoing 
it a bit.
    My questions are around the cuts to the EPA budget. The 
President has proposed a budget for EPA for 2012 that is $8.97 
billion. And it sounds like a lot of money. But when you put it 
in perspective, it is really just 0.06 percent of the total 
government debt, 0.26 percent of total government spending, and 
0.69 percent of the budget deficit. So we could really close 
down EPA and shudder the building and not make a dent in our 
overall budget deficit. But the ramifications for public health 
and the environment would be truly profound.
    This summer, the House appropriators proposed cutting EPA's 
budget by 20 percent below what the President requested for 
2012, and the President's request was low to begin with because 
it was already 13 percent below 2010 levels.
    Ms. Bennett, could you describe what impact these proposed 
Republican budget cuts would have on EPA's ability to implement 
and enforce the Clean Air Act?
    Ms. Bennett. Certainly that level of cut would make things 
very difficult. And in terms of our overall responsibilities, 
not just for the Clean Air Act but overall responsibilities, in 
particular there is a proposal of another $1 billion cut to the 
SRF budget as well as another I believe $100 million to State 
categorical grants and over another $100 million to the Great 
Lakes Initiative. So there would be a significant impact from 
that level of cut. And that budget would be lower than what we 
saw in 1998.
    Mrs. Christensen. So you might not be able to--you might 
have to reduce their quality monitoring also and might not be 
able to update your air quality standards in a timely manner?
    Ms. Bennett. We would certainly have to look at what we 
would have to be able to discontinue or what we would be able 
to afford at that time.
    Mrs. Christensen. And what impact would these proposed 
budget cuts have on EPA's ability to implement and enforce the 
Safe Drinking Water Act?
    Ms. Bennett. Well, again, I believe that the proposal would 
be to reduce the SRF by a combined billion dollars, and 
therefore, it would be reduced dramatically if it were on a pro 
rata basis.
    Mrs. Christensen. I want to note that the Drinking Water 
State Revolving Fund helps utilities deal with costs of meeting 
drinking water standards and repairing or replacing aging 
infrastructure, much of which is approaching the end of their 
useful life.
    The U.S. Conference of Mayors estimates that this spending 
is an economic win-win because it creates jobs and spurs the 
economy while ensuring healthy drinking water.
    These budget cuts would also affect the pace of toxic waste 
clean-ups in communities across the country.
    Ms. Bennett, could you describe what these proposed budget 
cuts would have on EPA's ability to clean up the Nation's worst 
toxic waste sites?
    Ms. Bennett. There would be, again, as I understand how--
you know, what has been proposed on that particular bill, is 
there would be an additional cut to Superfund, and there would 
be additional cuts to others, making it very difficult to 
continue the work that has been done.
    Mrs. Christensen. And you know, since it has been reported 
that maybe around 60 percent of some of these toxic waste sites 
are adjacent to minority communities, we would be extremely 
concerned about that.
    But EPA's budget is a drop in the Federal budget bucket. I 
am sure EPA could identify additional efficiencies and trim the 
budget along the margins, but overall, EPA is trying to 
accomplish big goals with limited funds, protecting America's 
water supply and air quality, taking action on climate change 
and protecting all Americans from dangerous toxic chemicals.
    So we shouldn't be fooled by Republican rhetoric about the 
budget here. This is the most anti-environmental Congress in 
history any way you look at it. It shows that in their effort 
to pass legislation that would weaken the Clean Air Act and the 
Clean Water Act, and it shows in the massive and damaging 
budget cuts that they have proposed to the EPA.
    And with that, Mr. Chairman, I will yield back the balance 
of my time.
    Mr. Stearns. The gentlelady yields back.
    The gentleman from Nebraska, Mr. Terry, is recognized for 5 
minutes.
    Mr. Terry. Thank you, Mr. Chairman.
    I have a little personal experience in the State of 
Nebraska regarding the State Revolving Fund. For example, a 
battle that we had with some of the EPA folks in rural Nebraska 
just a few years ago were on copper pipes. And what happens is 
the groundwater is a little higher acidic, and so when it sits 
in the pipe, it draws out some of the copper.
    The mandate from the EPA was to put in a water treatment 
facility. It would have been a fraction of the cost for one of 
these small times--some of these small towns to just go out and 
rip out on city dollar or little town dollars all copper pipes 
and replace them, but those weren't options. We put those on 
the table, and they were rejected by the EPA.
    So sometimes a water treatment facility is the least 
efficient, most expensive but yet the one that was mandated. 
Those are the type of lack of commonsense over-zealousness that 
we are looking at here. So perhaps at least from Nebraska, the 
revolving fund for the drinking water is not exactly the 
example to use to show how mean and anti-environmental the 
Republicans are.
    Now, reading through these reports, especially GAO, it 
talks about many areas where there are redundancies, divided 
responsibilities. And what we are trying to figure out, is 
there a way to make you, the EPA, leaner.
    So when you, Ms. Bennett, Honorable Bennett, mentioned that 
there were worthy projects that have been cut, you mentioned 
drinking water along the U.S.-Mexican border. Mr. Trimble also 
mentioned a drinking water project along the Mexican border 
which they felt was inefficient. Is that the same one that you 
said was cut?
    Ms. Bennett. It is the same program. I believe, if I--I 
think it is the same program because I am only aware of one.
    Mr. Terry. You probably should put it in full context that 
that was also one that was declared by GAO as one that was 
inefficient.
    Could you do the subcommittee here a favor as we are trying 
to make you a leaner, more efficient agency to accomplish your 
legislative goals, or goals that Congress has set out for you, 
could you provide us an itemization of all projects that have 
been cut or eliminated in the last 2 fiscal years?
    Ms. Bennett. In the----
    Mr. Terry. Could you provide that? That is a yes or no.
    Ms. Bennett. Well, in the budgets that we have submitted to 
Congress, there is a list----
    Mr. Terry. OK.
    Ms. Bennett (continuing). Of terminations that already 
exist.
    Mr. Terry. All right. Well, that is looking--what I am 
trying to figure out is, you gave me an example of two that 
were cut. As I understand from this whisper in my ear, that the 
budget gives us the proposed ones. I am looking backwards to 
see which ones were actually cut or eliminated. Could you 
provide ones that were actually in the last 2 fiscal years cut 
or eliminated?
    Ms. Bennett. I will be happy to get back to you on that.
    [The information appears at the conclusion of the hearing.]
    Mr. Terry. Thank you very much. Now, in the--very bland. We 
get it; this is just a balance sheet, and because it is so 
bland, it lacks a lot of data. Of course, the data is in a 6-
inch spiral notebook, but on the unexpended appropriations/
other funds in note 17, can you itemize for us what programs 
where they have the leftover unspent funds?
    Ms. Bennett. The unliquidated obligations, yes. What we----
    Mr. Terry. Tomato-tomato, yes.
    Ms. Bennett. Well, the reason I state that is because there 
is a difference between unobligated funds and unliquidated 
obligations. And I just want to make sure that we are talking 
about the same thing. And this line reflects the unliquidated 
obligations or the unspent funds that have been obligated. This 
year my office instituted a tool for the Agency to be able to--
--
    Mr. Terry. OK. My time is up, so would you, could you, 
provide a list of those unliquidated, which we call unexpended? 
And also the next line, cumulative results of operation earmark 
funds, I am kind of curious about that. Could you give us a 
list of the earmarks of which there are unspent, unliquidated 
funds?
    Ms. Bennett. We will be happy to get back to you.
    [The information appears at the conclusion of the hearing.]
    Mr. Terry. Thank you. That is the perfect answer.
    Ms. DeGette. Mr. Chairman, I ask unanimous consent that Ms. 
Bennett be able to finish the answer she was trying to give 
about the tool of her office.
    Mr. Stearns. Sure. Go ahead.
    Mr. Terry. Can the gentlelady yield to me? I wasn't trying 
to be rude. I just had no time left.
    Ms. DeGette. No problem.
    Mr. Stearns. Ms. Bennett, go ahead and answer the question.
    Ms. Bennett. Well, I think it is important to note that the 
unliquidated obligations has been not only mentioned by the 
Inspector General and GAO, but I know that when I came on board 
wanted to tackle it myself. So my office this year, I know I 
have put a real renewed focus on looking at unliquidated 
obligations. We instituted a new tool and provided new guidance 
to the Agency so that every unliquidated obligation was 
reviewed on at least an annual basis, and they have to send 
assurances to me that they have done so.
    And by virtue of that tool, we have been able to reduce the 
unliquidated obligations by over 50 percent in 1 year alone. So 
we recognize that this is an issue. We recognize this is an 
important budget item. And it is important for me as CFO to 
make sure that funds are not only used properly, but they are 
expended in the most efficient and effective way.
    Mr. Stearns. All right.
    The gentlelady from Florida, Ms. Castor, is recognized for 
5 minutes.
    Ms. Castor. Thank you, Mr. Chairman.
    And thank you very much. I am very concerned that a lot of 
these cuts are going to harm jobs and the ability of 
communities across the country to improve the environmental 
conditions. And it is interesting that we just had this 
conversation on the unliquidated obligations.
    The mayor of Tampa on October 6th received a letter from 
the EPA, from Stanley Meiburg, the deputy regional 
administrator, that says, we regret to inform you that the U.S. 
EPA will not be able to award the City of Tampa $1.25 million 
for the project regarding sediment removal from estuaries, the 
headwaters of the canal that are at issue. This is a matter 
that the city, the residents, the EPA and the State has been 
working on for years. It is a grant the city received some 
years ago. Sometimes these initiatives do take time. There are 
some issues here with State permits.
    I don't understand how the EPA, understanding all of the 
actions that have gone on, on an issue like this, all of the 
reliance on the grant funds, the moneys expended--I mean, we 
have got an engineering firm that has already expended about 
$600,000. We have another contractor that has expended about 
$22,000. And EPA said that they are not going to live up to 
their end of the bargain--they are on the hook, or the deal was 
that they would pay 55 percent of this clean water initiative 
and the City of Tampa would pay 45 percent. This has been an 
understanding for many years.
    Will you explain to me how this could happen, how the EPA 
could just after all the years of work on this, how the EPA 
could renege on the deal and take back the money that we have 
relied on?
    Ms. Bennett. Ms. Castor, that is a very good example of 
very worthy projects that end up having to be cut. In the 2011 
budget that we received in appropriations, we were directed by 
Congress to rescind $140 million of unobligated funds in a 
particular account, and that particular account was the State 
and tribal assistance grant. We did not have a choice as to 
which appropriation account. And we were also further directed 
that it must come from unobligated funds.
    So we attempted to try to be as fair as possible, 
recognizing that there are so many good projects on those 
lists. But we went back and went to the oldest unobligated 
funds that we had in that category and came up with the $140 
million of unobligated funds that were 2008 or earlier. And it 
sounds like, I am afraid, that that particular one was one of 
them.
    Ms. Castor. But we have relied on it. The city has expended 
money. People have been hired. They are ready to begin the 
project next year. Doesn't EPA owe us at least the portion of 
the funds that have been expended to date? And I would argue 
all of it.
    Ms. Bennett. We were left with very little latitude in 
terms of how we had to take the cut to the budget.
    Ms. Castor. So these jobs are just going to go away.
    See, now this is a real world example of how when you do 
things irrationally, it really hurts jobs, and it hurts the 
environmental quality of our community. We have been working on 
this for years and years and years.
    And it is just, it is unconscionable that these kind of 
cuts would have an impact on jobs and the environmental quality 
in my community.
    And I am going to leave these materials with you and want 
to talk to you all at greater length about at least covering 
the portion of the moneys that have been expended to date.
    Explain that discrepancy. How come EPA doesn't recognize 
that, OK, to date, we have spent over $600,000 on this and at 
least that portion should be covered?
    Ms. Bennett. Again, my--I had very little latitude in terms 
of how we were to cover the cut. We looked at the funds that 
had not been obligated. These were unobligated earmarks from 
many years ago. And so we tried to apply them as fairly as 
possible, recognizing when you cut funds, real projects get 
hurt.
    Ms. Castor. Real projects, real jobs, the expectations of a 
community for many years.
    Ms. Bennett. Yes. And there was a $140 million recision 
across that had to be taken, and it was taken across the 
country. And I appreciate your concern on that.
    Mr. Stearns. The gentlelady's time has expired.
    The gentleman from Texas, Dr. Burgess, is recognized for 5 
minutes.
    Mr. Burgess. Thank you, Mr. Chairman.
    Ms. Bennett, let me just ask you a question. And I 
appreciate these problems that we are talking about at the EPA 
are longstanding and long in degeneration. And your tenure 
there began when?
    Ms. Bennett. The end of 2009, so I am coming up on 2 years.
    Mr. Burgess. OK. My deepest sympathy.
    But you were a CFO in the real world at one time, is that 
not correct?
    Ms. Bennett. Indeed, I was.
    Mr. Burgess. And I appreciate the problem that the 
representative from Florida just articulated. That is very 
difficult at home.
    But on the other hand, as a CFO, I mean, you understand 
when you see the net position unexpended appropriations $13.5 
billion in an agency that has an $8 billion-a-year budget, and 
that is one and a half times your annual budget, I mean, that 
becomes an attractive target, especially in a time when budget 
cuts are happening all over the place. So you see the problem 
there; with your CFO eyes, you see that problem, correct?
    Ms. Bennett. And that is why I put a real renewed focus on 
it this year. My staff will tell you that it is what I talk 
about an awful lot in terms of making sure that the funds are 
used effectively and efficiently and most expeditiously.
    Mr. Burgess. Well, and I would just second Mr. Terry's 
request that we get the details of that and the details of the 
next line, the earmarked funds, because I think that is going 
to be very important in helping us foster an understanding of 
just what is going on here.
    Mr. Barton's request that the credit card statements be 
reviewed I think is rational. If someone is buying automobiles, 
we at least want to make sure they are buying hybrids, not 
mustangs, because we all know the EPA rating for a mustang on 
miles per gallon is pretty high.
    You know, on the GAO report, and again, I am asking you to 
look at this with your CFO eyes, here I am looking at the 
management of EPA's workload, workforce and real property, and 
the paragraph begins, with respect to workload and workforce, 
EPA has struggled for years to identify its human resource 
needs and deploy the staff throughout the Agency in a manner 
that would do the most good. OK. Fair enough. You have only 
been there for 2 years. This is a problem that is longstanding.
    But, I mean, this is the stuff that really gets you. EPA 
requested funding and staffing through incremental adjustments 
based largely on historical precedent. That means our budget 
was X last year for this, and it is going to be X-plus for this 
year. And instead of going back and evaluating what you really 
need to do the job to do the most good for the most people, you 
simply take what happened last time and add to it. Is that what 
is going on here? Is that what the GAO is referencing?
    Ms. Bennett. The approach that I take to the budget process 
is not on an incremental basis.
    The direction that we give is to look at the programs and 
to use subject matter experts to determine the level of 
funding.
    That said, I also recognize that the reports that GAO has 
come forward with, with the workload, and that it has been a 
long time in coming. I will tell you that when I asked about 
the reports and what they referenced, what I was trying to 
balance was a prior report on workload had indicated that we 
might need as many as 3,000 additional people. And I didn't 
feel that that was going to be an effective way----
    Mr. Burgess. No, it was not. I am going to interrupt you, 
only because of the interest of time. But the problem is the 
reports we have in front of us, the Inspector General's report, 
the GAO report, I mean, this same theme repeats itself over and 
over again. In the IG report, the comments about the 
information technology, that it has taken a long time and a lot 
of extra money to get that right, and no one even knows how 
many work stations and how many computers. You are a CFO.
    I mean, that is pretty basic. I am just a simple country 
doctor, but that seems to me to be CFO 101 stuff. Is that a 
correct interpretation?
    Ms. Bennett. It is definitely something that a CFO, 
including myself, takes very seriously, and why I am working 
with both the Inspector General and the GAO to make sure that 
we are addressing those recommendations.
    Mr. Burgess. Well, in the last Congress, we heard from the 
Office of Water, and the IG's report at that time brought up 
that the Office of Water had more un- implemented 
recommendations by the IG's office than any other branch. And I 
looked at the result as of March 31, 2011, and it is the same 
thing, Office of Water stands out as having more unimplemented 
obligations.
    Let me just ask you this, Lisa Jackson, Administrator 
Jackson, last summer convened a group of folks and said we got 
to get ready for the budget cuts; is that correct? I have a 
news report here somewhere that references that from I think 
July 19.
    Ms. Bennett. We need to get--we were preparing to go 
through the budget process.
    Mr. Burgess. Could you get us a list of the programs that 
were identified as most essential from that meeting? Did the 
meeting take place? I assume it did.
    Ms. Bennett. We had a discussion at the meeting.
    Mr. Burgess. Did you generate a list of the programs that 
were most essential or least essential?
    Ms. Bennett. We provided a lot of analysis during that time 
in terms of how we go about in making decisions in terms--you 
know, predecisional type of----
    Mr. Burgess. Would you be willing to share with this 
committee the results of that meeting?
    Ms. Bennett. Well, predecisional meetings--excuse me, 
predecisional materials are typically not provided.
    Mr. Burgess. But you had a meeting. And were there no 
action items then coming out of this meeting last July?
    Ms. Bennett. The action items that are in reference to the 
meeting in July and conversations since then were for the 
presentation of the 2013 budget, which is still not complete.
    Mr. Burgess. Well, I think this committee probably does 
have the ability to see the predecisional material, the right 
to see the predecisional material. And I would ask you when you 
go back to see if you cannot make that information available to 
the committee. Because just like you, we are faced with tough 
choices, too. The water quality things on the Texas-Mexico 
border, I mean, that is far away from my district, but I have 
visited the Colonias; I know the problem that they have. And if 
the problem was that you guys didn't study what you actually 
needed before you started pumping money in and now you feel 
that it is being wasted, that is a huge problem, and we need to 
get to the bottom of it.
    So I thank you, Mr. Chairman, for your indulgence. I would 
ask that the predecisional materials be made available to the 
committee and committee staff. And I yield back the balance of 
my time.
    [The information appears at the conclusion of the hearing.]
    Mr. Stearns. The gentleman from Texas, Mr. Green, is 
recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    I thank our panel for being here today. And if you don't 
mind let me go over, I know what you all have to do on the 
executive branch budgeting, but we also have some 
responsibilities on our congressional budgeting process that I 
think needs to be concerned. In fact, I served many years in 
the legislature, and our Governor sent us a budget, but we 
immediately threw it in the trash can and drew our own, which 
is typically what Congress will do. If you like the President's 
budget, you talk about it. If you don't, you go ahead and draft 
your own.
    The focus today is on the budgeting of the executive 
branch, but Congress plays a role. In fact, as Democrats on 
this subcommittee and a bipartisan witness made clear at last 
week's hearing, the Constitution vests primary responsibility 
in Congress. In carrying out that constitutional duty and 
responding to requirements of the Budget Act, once a President 
submits its budget to Congress in February, we are supposed to 
hold hearings on it, authorizing committees are supposed to 
pass their views and estimates and send them to the budget 
committees. And then Budget Committees are supposed to produce 
a budget resolution. Once we have a budget resolution, the 
Appropriations Committee should begin work on appropriation 
bills; the authorizing committee begin work on reconciliation 
instructions contained in the budget resolution.
    Before the fiscal year begins on October 1, 12 separate 
appropriations bills are supposed to be considered, debated and 
passed by both Houses of Congress and signed by the President. 
But that has not happened--I am trying to think of how many 
years it has been since we have had it happen. To the contrary, 
over the last year, Congress has funded the government through 
a series of continuing resolutions, most recently one that 
lasted only a few days. And I can't imagine that this approach 
to budgeting enhances the efficiency of our Federal Government.
    Ms. Bennett, what impact do these short-term continuing 
resolutions have on your agency's ability to carry out its 
mission, whether it be contracting, grant writing, hiring, 
delay in projects or, particularly, cleaning up the 
environment?
    Ms. Bennett. Short-term CRs make it very difficult to 
implement programs, especially when they are multiple and very 
short in nature. It makes it very difficult to decide what to 
do because you are not sure how much money you are going to 
have. And I know certainly from my experience in the private 
sector, it would make it very difficult to operate a business.
    Mr. Green. Well, it seems like, I mean, EPA is a smaller 
agency compared to GAO and even DOD. Twice in the last 6 
months, our majority in the House has brought the government to 
a brink of a shutdown, once threatening a default on the 
Nation's loan obligations. What impact do these shutdown 
threats have on efficient and effective agency operations?
    Ms. Bennett. Well, certainly when the workforce is looking 
at a possible shutdown, we--you know, a lot of work is just put 
on hold to determine what we can do.
    Mr. Green. If you will be there the next day, in some 
cases.
    Ms. Bennett. Exactly. And a very anxious workforce, as well 
as trying to determine what we are actually legally able to do 
in terms of a shutdown.
    Mr. Green. In your agency, would your agency be better able 
to act efficiently and effectively if Congress fulfilled its 
statutory duties under the Budget Act and passed not only all 
of the appropriations but maybe just a few on time?
    Ms. Bennett. It would certainly--to have a budget that is 
approved on time would certainly be helpful.
    Mr. Green. Well, and I know a lot of us came out of the 
business sector, and it is amazing how we couldn't run a small 
business where I was at not knowing what we may be able to do. 
Congress certainly has an oversight to play with respect to the 
federal budget, but it also has a constitutional duty to 
respond to the President's budget proposals in good faith and 
ensure that the budget emerges from Congress in a manner that 
promotes administrative efficiency and programmatic 
effectiveness. I think maybe Congress ought to be looking at 
our responsibility on doing that, whether it is this committee 
or any other committee, particularly Appropriations and Budget 
Committee.
    And with that, Mr. Chairman, I will be glad to yield my 
time to our ranking member if she has any other questions.
    No?
    Mr. Stearns. The gentleman yields back the balance of his 
time.
    And the gentleman from Virginia, Mr. Griffith, is 
recognized for five minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    I noted with some interest that you indicated, Ms. Bennett, 
that the $13 billion in unexpended appropriations, I think your 
words were, may be more than 5 years in implementation; some of 
these commitments may have been made more than 5 years ago. And 
I am curious about that, because I guess what I am hearing is, 
and I need you to tell me if I am incorrect, is that sometimes 
to get complicated projects done and to do things in the right 
way and to make sure that you are doing them in the most 
efficient way possible, it takes more than 5 years to get some 
of these projects done. Would that be an accurate statement?
    Ms. Bennett. Well, I think that many projects can take more 
than a few years.
    Mr. Griffith. And so I guess what I am trying to figure 
out, and I know it is not really your role, so I will make it 
more of a rhetorical question is, why would the EPA oppose H.R. 
2250, which would give businesses 5 years in order to comply 
with new regulations from the EPA? I leave that as a rhetorical 
question. But I do note with some interest that the EPA is not 
able to follow the rules that they oppose for businesses.
    And I would then point out to you that I also have heard a 
lot of talk about wastewater and safe drinking water programs 
and so forth and that a lot of those may be in here. And I will 
tell you of an incident, because this may be part of the 
problem, that has been brought to my attention recently where 
without having the cooperation that we heard is not going on, 
various agencies of the State and Federal, including the EPA, 
came up with different rules, and some areas were trying to 
work on these very issues, safe drinking water and wastewater, 
and the big impediment to getting them done in a timely fashion 
and what ended up costing more money were not having the 
flexibility, like Mr. Terry pointed out, not the exact same 
situation, but not having flexibility from the EPA and others, 
and different people coming in and telling folks different 
things. And so they had the construction crews there ready to 
go, and then all of a sudden somebody comes in and says, wait a 
minute, you haven't done X. And not looking at practical 
solutions to the problem and just to note you have got to 
follow this strict rule, that project was then delayed and cost 
the community additional moneys. And it may very well be one of 
your 13 billion programs because they are trying hard to both 
bring safe drinking water and wastewater programs into my 
district, but also to comply with the regulations put on them 
trying to get those projects completed by the EPA.
    And so I would ask that you do work very hard to make sure 
that you get that cooperation going. Because when you don't 
have the cooperation, folks actually have let the contracts and 
have the bulldozers sitting there, that equipment costs money 
to have sitting there while they try then to comply with 
something new that was thrown at them at the last minute.
    So I encourage you to encourage the EPA to do that. I also 
would have to ask, in regard to figuring out the staffing, and 
I guess I am going to switch to Mr. Elkins, would I be correct 
that when you are saying that you need to know what kind of 
staffing needs you have and that there hadn't been a study and 
you really need to have a study be akin to trying to run a 
McDonalds and not know when your peak periods were for that 
particular community and neighborhood and how many employees 
you needed to have and so then maybe you over staff all the 
time to make sure you can meet the peak demands? If you don't 
have the accurate information, how many people it takes to get 
lunch served in that particular community, isn't it true you 
are libel to have more employees than you need in order to meet 
the peak periods?
    Mr. Elkins. That would be a fair conclusion, yes.
    Mr. Griffith. And is that the same kind of situation, not 
that EPA is trying to meet the lunch crowd, but the similar 
type of thing that they may not have the right number of people 
in the right locations and they may actually be over staffing?
    Mr. Elkins. That is a fair conclusion, yes.
    Mr. Griffith. All right. Thank you very much.
    And in regard to the rent, is it possible that EPA could 
look for cheaper accommodations? I have noticed they have some 
of the nicest buildings as I come into Washington every week. 
Is it possible they could move to cheaper accommodations?
    Mr. Elkins. Well, I would assume anything is possible.
    Mr. Griffith. All right. If I indicated to you that we have 
lots of empty space in the Ninth Congressional District of 
Virginia and that that is actually close to an area that EPA 
seems to be focused a lot of attention on, the coal mining 
region of the Central Appalachians, it would seem to make 
sense--and we might not want them close, but they might 
understand some of the issues better. If I told you the rent 
down there is a whole lot cheaper than Washington, they could 
save some money that way, couldn't they?
    Mr. Elkins. You know, that may be a little bit----
    Mr. Griffith. It would have to be studied I assume?
    Mr. Elkins. Yes.
    Mr. Griffith. In regard to the 37 labs, I heard something 
that I don't understand, and there was 37 labs, but it was like 
115 buildings. Can you explain that to me, Mr. Trimble?
    Mr. Trimble. Yes, 37 labs, but they have 170 buildings or 
facilities. So some of those may not be full office buildings 
or lab facilities but smaller operations as well. So it is 
about 170 located in 30 cities, all operating under 15 
different managers.
    Mr. Griffith. And I think the conclusion that you have 
made, and I think most people would make, is that there ought 
to be some room for consolidation; you might not need 15, but 
you might need 7 or 8 managers----
    Mr. Trimble. Well, I think we are agnostic on whether you 
need consolidation as much as that it is you need the 
information to know whether you have the right number and in 
the right place and the right skill sets. And if you are doing 
workforce planning, you need to manage entire portfolios and 
integrated portfolios as opposed to sort of stovepiped.
    Mr. Griffith. All right. I appreciate that. And I see that 
my time is up, and I yield back my time.
    Mr. Stearns. The gentleman yields back his time.
    Mr. Scalise is recognized for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman.
    I appreciate the panelists coming to talk about the budget. 
I know one of my colleagues on the other side was lamenting the 
failure to pass a budget, and I would share that concern. I 
know right, not 3 months after this Republican majority came 
into Congress, we passed a budget over to the Senate. It has 
been nearly 3 years since the Senate has passed a budget of any 
kind. They took up our budget, voted it down. They took up the 
President's budget and didn't even get one vote, not one vote 
in the United States Senate for the President's budget.
    So hopefully our friends over in the Senate will finally 
start doing their job that we have already done over here. And 
if they don't like our budget, pass one of their own that they 
can pass. But it has been almost 3 years, so I would imagine 
you almost have some frustrations with that as well.
    When we are talking about--you know, you have mentioned 
cuts. When I look at your budget, when President Obama took 
office, it was around $7.5 billion. Is that correct? Is that a 
ballpark?
    Ms. Bennett. In 2009, it was $7.6 billion.
    Mr. Scalise. And today, what is your budget?
    Ms. Bennett. In 2011, it was just under $8.7 billion.
    Mr. Scalise. So your budget has actually gone up over $1 
billion. How is that a cut?
    Ms. Bennett. From 2009, it was not a cut.
    Mr. Scalise. So you had a $7.5 billion budget 2 years ago. 
Every State, I know in my State, pretty much every State that I 
have been following, they are actually cutting the size of 
their budget.
    You talk to families who are struggling in these tough 
times, most families have been cutting back over the last 2 
years. And yet you have got over $1 billion increase in your 
budget over the last 2 years, and you are complaining that you 
are cut somehow. I mean, maybe in Washington that is a cut. But 
when you look at your budget 2 years ago, you look at what 
States have dealt with, what families have dealt with, you have 
actually got more than $1 billion increase over that time, and 
you are somehow calling that a cut that is hurting health.
    Ms. Bennett. Actually, in terms of the overall budget, from 
2000 to 2009, there was no increase in EPA's budget from those 
2 years----
    Mr. Scalise. Well, we are looking at the 2 and a half years 
going back to when President Obama took office.
    Ms. Bennett. And in 2010, there was a large increase in two 
particular areas in particular.
    Mr. Scalise. And I hope you would understand that we are 
living in the real world. And you know you talk to families; 
when we go back home and meet with our small business owners, 
they are cutting back. They want to reinvest in their business 
and create jobs. And frankly, EPA has been the main source of 
job losses when you talk to a lot of our small businesses. They 
say it is the things that you all are doing, some of these new 
regulations that are coming out, that are making it impossible 
for them to create jobs in the real world. And I hope you would 
understand that it is kind of hard for a lot of those 
businesses and families that are struggling, and they are 
cutting back. They want to create jobs, but they can't because 
of the some of the rules you are sending out. You actually had 
an increase of $1 billion compared to 2 years ago, and you are 
trying to complain to us that you got a cut. And so I just want 
to put that on the record because clearly, you go from $7.5 
billion 2 years ago to over $8.5 billion today; that is not a 
cut. I mean, are those numbers correct?
    Ms. Bennett. And the increase of the SRFs and to the Great 
Lakes are for the most part straight passthroughs to the States 
and to the communities.
    Mr. Scalise. And so again, like I said, a lot of people 
struggling out there. They would be more than happy to have 
that kind of increase, more than a 10 percent increase, over a 
2-year period.
    When we look at some of the things that are in this report, 
when you go to the properties, in your testimony, let's see 
right here, Ms. Bennett, your testimony on page 3, you said 
that you all have released approximately 375,000 square feet of 
facilities, resulting in cumulative annual rent avoidance of 
over $12.5 million. By rent avoidance, you mean----
    Ms. Bennett. We are not incurring it.
    Mr. Scalise (continuing). You reduced the amount of space. 
But then when I look at the Inspector General's report, it says 
you are spending probably somewhere around $300 million a year. 
In some cases, you have got buildings where you have one or two 
EPA employees for that whole building. Have you seen that in 
the Inspector General's report?
    Ms. Bennett. I have. We do have a number of facilities. We 
have not only a number of office facilities, we have, as Mr. 
Trimble has mentioned, we have a number of labs, and we have a 
number of warehouses. The field offices that have one or two 
people, I have recently directed that we have a review of all 
offices that have less than 10 people, in order to make sure 
that we continue to need them, and with the new technology that 
is available, that perhaps we have more----
    Mr. Scalise. OK. And you go on to say you plan to further 
reduce energy utilization. Maybe you can get some of those 
extra Solyndra solar panels to put on the roof and maybe we can 
get something to show for that $535 million we might be on the 
hook for.
    Going to the audited report, the EPA audited report, and I 
know I am running low on time, so I am just going to ask these 
quick questions and see if you can give me the details. On page 
33, unpaid obligations looks like $13.8 billion. If you can get 
me a breakdown or get the committee a breakdown of what that 
really means, because we don't have anything beyond just one 
line that says unpaid obligations, $13.8 billion. Undelivered 
orders, $12.8 billion, if you can get the committee a breakdown 
of that. And finally, unexpired, on page 71, unexpired 
unobligated balance, $4.4 billion, if you could get the 
committee details about what that really is, because it doesn't 
give it to us in this audit. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Griffith. [presiding.] Thank you.
    And the gentleman from Colorado, Mr. Gardner, is recognized 
for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman.
    And thank you as well for the witnesses their time to join 
us today.
    And so just to follow up on Mr. Scalise's questions, the 
EPA funding has increased then over the last 2 years.
    Ms. Bennett. Since 2009, it has increased.
    Mr. Gardner. It has increased. OK. Thank you for that. And 
you had mentioned earlier there is about 17,200 employees at 
the EPA, or at least that was in the request.
    Ms. Bennett. That we requested in 2012.
    Mr. Gardner. What percentage or what number of those are 
actually involved in writing regulations?
    Ms. Bennett. Off the top of my head, I am not sure, but I 
would be happy to get back to you on that.
    [The information appears at the conclusion of the hearing.]
    Mr. Gardner. If you can get back to me and let us know how 
many of those are involved in writing regulations, I would 
appreciate it. And do you anticipate a budget being passed by 
the Senate this year, and if so, what would that number be?
    Ms. Bennett. I don't think I will answer that one.
    Mr. Gardner. Is that because you don't think they will pass 
one?
    Ms. Bennett. No, because I think that is not my decision.
    Mr. Gardner. And if you could ballpark the number of 
mandates that are coming out of the EPA on various drinking 
water regulations, on various municipal treatment, sewage 
treatment regulations, excuse me, regulations that are going 
out to local municipalities when it comes to drinking water 
treatment and sewer treatment, do you have an idea of the 
unfunded mandate, the level of unfunded mandates right now?
    Ms. Bennett. My responsibility as CFO is to ensure the 
financial integrity of the EPA's budget. And so----
    Mr. Gardner. You are not involved in those, OK.
    Ms. Bennett. I am not involved.
    Mr. Gardner. Then going back to that question, of this 
$13.3 billion that has been discussed at length today, that is 
not in the budget justification submitted to Congress, is that 
correct?
    Ms. Bennett. No. And that is a figure that is a year old.
    Mr. Gardner. And so what would that figure be today?
    Ms. Bennett. We are still closing the books. I don't have 
the number for you.
    Mr. Gardner. But surely you know what has been spent out of 
that as the year goes. I mean, you keep a running tally of how 
much money you spend out of that.
    Ms. Bennett. I would have to get back to you on that. Off 
the top of my head, I don't know the figure. But we have looked 
at the unliquidated obligations, which is the same thing as the 
unexpended obligations, and have done and implemented a tool 
that allows for us to be able to review all of the unliquidated 
obligations and see what we might be able to de-obligate and 
either recertify or return back.
    Mr. Gardner. And that has been implemented now?
    Ms. Bennett. My office implemented it this year in 2011.
    Mr. Gardner. But you still don't not know how much of the 
$13.3 billion is left?
    Ms. Bennett. Off the top of my head, I do not.
    Mr. Gardner. Even though that tool has been implemented?
    Ms. Bennett. I don't have the tool in front of me at this 
particular moment.
    Mr. Gardner. So it is still something that you don't know 
about $13.3 billion where it is or how it is being spent or how 
much is being left?
    Ms. Bennett. I would have to get back to you on that.
    Mr. Gardner. Mr. Trimble, does EPA have access to that 
$13.3 billion for other program use?
    Mr. Trimble. I have not--we have not looked at the balance 
sheet, so I really couldn't speak to that. I could probably 
come back to you with something----
    Mr. Gardner. Ms. Bennett, where is that $13.3 billion 
today?
    Ms. Bennett. We have already agreed that we would get back 
to you on the information in regards to that particular amount.
    But it reflects obligations that the Agency has made and 
for projects that are ongoing. And so we will be happy to get 
back with you on any more details.
    Mr. Gardner. And Mr. Elkins, do you know where that money--
can they use that money, have access to that $13.3 billion for 
other programs?
    Mr. Elkins. Let me defer to Melissa Heist on that question.
    Ms. Heist. It varies by appropriation. Some can be made 
available and some would have to be returned, so it depends.
    Mr. Gardner. And when you say returned, who is that 
returned to?
    Ms. Heist. Well, the money hasn't actually been drawn down 
from the Treasury and has been sitting in EPA, so it would be 
available to be reappropriated, I guess.
    Ms. Bennett. Only if they are not----
    Ms. Heist. Some of it.
    Ms. Bennett [continuing]. Valid obligations.
    Ms. Heist. Exactly.
    Ms. Bennett. So if they haven't been drawn down and they 
would be--let's say there is some left over on a particular 
project, then they would be returned. If there is still time 
left in terms of the amount of money, excuse me, on the amount 
of time that could be used, they could be recertified and 
redeployed; otherwise, they would be returned to the Treasury.
    Mr. Gardner. And so recertified and redeployed, by that are 
you talking about on a new program, re-obligated for what it 
was initially offered for?
    Ms. Bennett. Re-obligated.
    Mr. Gardner. And so there is no way then for EPA to use 
that for other purposes within EPA?
    Ms. Heist. Some of it could be reused at EPA.
    Mr. Gardner. For different purposes than what they had 
originally?
    Ms. Heist. Well, it would have to be used for the purpose 
of which it was appropriated. So if it was for water projects, 
it would have to be used for water projects.
    Mr. Gardner. But maybe on a different water project?
    Ms. Heist. Yes.
    Mr. Gardner. And you will get information back to us on 
where that money is and how it is used?
    Ms. Bennett. We have agreed to follow up with you on it.
    Mr. Gardner. And can you give us some kind of a guarantee 
that you will put that into the budget justifications so that 
we have that information before us so we don't have to have a 
congressional hearing to find out what is happening with this 
money?
    Ms. Bennett. I will be happy to get back to you on it.
    Mr. Gardner. Mr. Chairman, I yield back my time.
    Mr. Griffith. If we will pause for a second, I will have 
the real chairman resume his position. Thank you.
    Mr. Stearns [presiding]. I thank the gentleman from 
Virginia.
    Ms. Bennett, my colleague, Dr. Burgess, requested the 
predecisional materials resulting from the July meeting called 
by Administrator Jackson. Can you please confirm for the record 
that the EPA will provide these materials to the committee?
    Ms. Bennett. It is not my decision as to the provision of 
predecisional meetings, but I will be happy to confer with OMB 
and inside the Agency. I certainly appreciate your interest in 
the issue and be happy to get back to you on it.
    Mr. Stearns. Mr. Trimble, does the EPA have access to funds 
that it does not report to Congress in its budget proposal?
    Mr. Trimble. Well, I think if this is in reference to 
monies that they have de-obligated and have recertified for 
other programs, yes. So, for example, if they have a grant or 
an interagency agreement that it has been closed and there are 
funds that have been left over, EPA, during the course of the 
year, can use those funds for other purposes within certain 
constraints.
    Mr. Stearns. How much money are we talking about? Has the 
amount of unexpended appropriations remained relatively 
constant?
    Mr. Trimble. I don't have a trend that I could give you. I 
know when we first started tracking this issue over 10 years 
ago, this was an area where the Agency was not doing a good 
job. They have done much better recently. I believe the last 
year I remember looking at this they had, the number they had 
repurposed was about $160 million.
    Mr. Stearns. Considering the large amounts of unexpended 
appropriation raises a question: Why isn't the EPA spending the 
money provided by Congress?
    Mr. Trimble. Well, in the moneys that we are talking about 
that we have looked at as part of our review of the budget 
justification requests, typically the moneys we are talking 
about are for programs where they did spend some of the money 
just not all of the money, for example a grant or an 
interagency agreement or a contract. They have carried out some 
of the work, or the contract was terminated earlier; it didn't 
cost as much, so there is money left over, so the contract is 
closed. And what our past work had shown is that they had 
done--been doing a good job of monitoring that and sweeping 
those moneys up to be used for other purposes. So over the 
years, the GAO plus the IG has been pressing the EPA on this. 
They have improved their tracking. What we have recommended or 
suggested is that when they have repurposed this money, it be 
transparent to the Hill so that you can consider that in your 
budget deliberations.
    Mr. Stearns. If the EPA is not spending the money, even you 
mentioned that they might cancel a contract and they had 
leftover funds.
    Mr. Trimble. Well, it could be that the reason they have 
the leftover money was the contract was cancelled. So, for 
example, a project is terminated or it is finished early, so 
they thought it was going to cost $10 million; it cost $5 
million. They complete the contract. You still have the money 
that was obligated, but they never spent it.
    Mr. Stearns. So what happens to that $5 million?
    Mr. Trimble. Well, it sits, unless they flag it and then 
deobligate it and then put it to another purpose. And those 
were the issues that we have been flagging over the past 10 
years.
    Mr. Stearns. Could they use that for next year's budget?
    Mr. Trimble. I think, depending, I defer to EPA on this, 
but I think you could, depending on some of your moneys, no, 
your money; some money may have a time limit on it.
    Mr. Stearns. Mr. Trimble, is it correct that GAO issued a 
report just this past July that identified challenges relating 
to EPA's management of its real property, namely property 
management identifying excess and underused property as an area 
where there may be budget savings for our Supercommittee?
    Mr. Trimble. I am not familiar with the work we have done 
for the supercommittee, but I believe that is----
    Mr. Stearns. I mean, just in general. You are stating there 
are areas where there is underused property, that we could save 
money, isn't that true?
    Mr. Trimble. Yes, I believe. And that is an area of high 
risk that we have identified for a long time for the Federal 
Government.
    Mr. Stearns. Isn't it also true that GAO found that the EPA 
did not have accurate and reliable information on the need of 
its facilities, property use, facility conditions and operating 
efficiencies?
    Mr. Trimble. Yes. Specifically that is in relation to its 
laboratory facilities.
    Mr. Stearns. Ms. Bennett, do you agree with what Mr. 
Trimble indicated that the GAO findings concerning the 
completeness and reliability of operating costs and other data 
needed to manage EPA properties are not there?
    Ms. Bennett. We certainly respect the findings of the GAO, 
and we are working toward addressing the issues and being able 
to improve on those issues.
    Mr. Stearns. Mr. Trimble, you referenced in your--let's see 
here, June 2010 Presidential memorandum that directed agencies 
to accelerate efforts to identify and eliminate excess 
properties to help achieve $3 billion in cost savings by 2012, 
is that correct?
    Mr. Trimble. That is correct.
    Mr. Stearns. Did EPA eliminate any of its laboratories or 
major assets as a result of that directive?
    Mr. Trimble. No. EPA told OMB that they needed all their 
lab facilities.
    Mr. Stearns. Let me see if I understand this. EPA tells the 
White House it doesn't have excess property, but GAO's own 
work, and EPA concurs, shows the Agency doesn't have accurate 
or reliable information to make this determination. Is that an 
accurate statement, Mr. Trimble?
    Mr. Trimble. Well, I don't know about the EPA concurring. 
At the time, the key factors that they needed to factor into 
the decision concerned need, usage, efficiency, cost, those are 
all the things called for by OMB for the analysis, and our 
review found that EPA's data in those areas was either 
incomplete or the accuracy was questionable.
    Mr. Stearns. Ms. Bennett, so the question for you is, how 
can EPA justify its response to the White House that it doesn't 
have duplicative or excess property when it doesn't have the 
data to support even their determination?
    Ms. Bennett. Well, in terms of the labs, for 2012, we have 
included in our President's budget request some funds in order 
to make sure that we properly look at the use and the skills 
that are necessary for the labs to see where we might be able 
to have additional efficiencies and where we might be able to 
save costs.
    Mr. Stearns. You see what I am saying, though. I mean, EPA 
is making this decision, and yet it is clear you don't even 
have the reliable information to make this decision, yet you 
are telling them----
    Ms. Bennett. And we are working on getting better 
information to make the decisions that are necessary.
    Mr. Stearns. How long is that going to take you?
    Ms. Bennett. The lab study that we hope to be undertaking 
pending appropriation would be done in 2012.
    Mr. Stearns. OK. My time is expired.
    Ms. DeGette. Mr. Trimble, I completely agree with the 
recommendation that for unexpended appropriations, which are 
actually going to go to a project and they are repurposed by 
the Agency, that needs to be transparent.
    And I am assuming, Ms. Bennett, you would agree with that 
as well.
    Ms. Bennett. Indeed.
    Ms. DeGette. And just so we can be clear for the record, 
Mr. Trimble, Ms. Bennett told us a little while ago that of 
this unexpended appropriation line, some of that is for 
projects that are coming down the pike. GAO doesn't object to 
any of that, right?
    Mr. Trimble. Yes. You know, I am not an accountant, so full 
disclosure here.
    Ms. DeGette. Me neither.
    Mr. Trimble. The numbers that GAO has been talking about 
are not the unexpended appropriations on this balance sheet. I 
believe, my understanding, and limited as it is, is that the 
balance sheet numbers may include, there may be obligations 
behind those numbers so it is just a matter of a timing issue 
in the spending.
    Ms. DeGette. Right. And the other thing is, for some of the 
appropriations, they might be appropriations that couldn't be 
redirected, depending on how broad or narrow they are, right?
    Mr. Trimble. Yes. And again, I would defer to----
    Ms. DeGette. You know, if it is an--I will ask Ms. Bennett. 
If it is an appropriation for like water projects and you 
didn't need it for this one, but for that one, you could 
repurpose that, right?
    Ms. Bennett. If it was within the same appropriation.
    Ms. DeGette. Right. But that is what we should know if you 
are doing that, right?
    Ms. Bennett. Exactly.
    Ms. DeGette. Yes. And then you might have an appropriation, 
though, for something else. You might not have, you may not be 
able to repurpose that because of the nature of the 
appropriation. That would revert to the Treasury, right?
    Ms. Bennett. If we cannot recertify, if we cannot find 
another project of a suitable nature----
    Ms. DeGette. Right.
    Ms. Bennett [continuing]. Then my understanding is it would 
go back to the Treasury.
    Ms. DeGette. Right. And does that happen?
    Ms. Bennett. It does.
    Ms. DeGette. OK. I think that is part of what the chairman 
is wanting to know, how much that happens. But just to be 
clear, this money that is on this balance sheet, or any other 
money that--it looks like a lot of money sitting there, $13 
billion or $14 billion, but that is not actually just a whole 
bunch of cash just sitting around that could be used to offset 
against next year's EPA appropriation. Much of that money is 
obligated, correct?
    Ms. Bennett. That money is obligated, so the government has 
an obligation to meet its contracts.
    Ms. DeGette. And when we just cut those funds of previously 
obligated money, what Congresswoman Castor was talking about, 
that is exactly the kind of thing that happens, is projects 
have to be eliminated, even sometimes projects that are 
underway, right?
    Ms. Bennett. Well, in her case, it was for projects that 
had not actually been obligated.
    Ms. DeGette. Oh, OK.
    Ms. Bennett. So those were those particular funds. So a 
contract had not been entered into. A grant had not been 
entered into her case. However, it still affected real work and 
real jobs, according to what she said.
    Ms. DeGette. They were counting on that money, even though 
it wasn't obligated, and then it got cut, right?
    Ms. Bennett. It was a very, very difficult decision.
    Ms. DeGette. OK. Thank you. Thank you very much, Mr. 
Chairman. And I want to thank all of these witnesses for 
coming. I think it is a really useful review.
    And as I mentioned in my--oh, well, as I mentioned in a 
side bar to you, Mr. Chairman, I think once the EPA completes 
this analysis of what they are going to do based on the IG's 
recommendations, that we should have a follow-up hearing, I 
think would be useful.
    I yield back.
    Mr. Stearns. I thank the gentlelady.
    Mr. Griffith from Virginia is recognized for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    The EPA has various initiatives like the American Great 
Outdoors Initiative, Green Power Partnership, the AgStar 
Program and the Energy Star, just to name a few. I was 
wondering if you can tell me, do you know how many voluntary 
programs there are at the EPA?
    Ms. Bennett. I know we have quite a few voluntary programs. 
The exact number I would have to follow back up with you on 
that.
    Mr. Griffith. And do you have an idea how much the Agency 
spends on the voluntary programs versus statutorily required 
programs?
    Ms. Bennett. Most of the funds go to statutorily required 
programs, but I don't know the exact----
    Mr. Griffith. All right. If you could give me the answers 
to both of those questions later, that would be greatly 
appreciated. Can you do that for us?
    Ms. Bennett. I believe I can. I will certainly follow up 
with you on it.
    [The information appears at the conclusion of the hearing.]
    Mr. Griffith. All right. And in its 2012 request, EPA 
proposed a $36 million reduction from nonpoint source pollution 
grants. However, at the same time, it proposed increases in 
other programs with a focus on nonpoint pollution, the 
Mississippi River Basin Initiative, Chesapeake Bay Program, et 
cetera. After review, it appears the EPA may be proposing to 
just move money from one account to another. Are these cuts 
real cuts, or is the EPA simply shifting the money from one of 
its programs to another?
    Ms. Bennett. I think you are referring to what we call the 
categorical grants in the STAG account. And indeed, the 
nonpoint source did sustain that--we are proposing a $36 
million cut. We had--part of our budget process is consultation 
with the States, with ECOS, and with the tribes. And based on 
that consultation, although the 319 program is a very important 
one, we also recognize that there were other categorical grants 
that they had indicated might be more important to them, and so 
we were trying to accommodate those requests.
    Mr. Griffith. Now, as a part of that cooperation that we 
heard about today from other witnesses, is it possible, do you 
think that the--because it looks like the USDA is doing the 
same work on nonpoint source that you all are doing, is there 
some way you all can get together and perhaps reduce the cost 
of working on the problem? I am not saying you shouldn't work 
on the problem, but reduce the cost of working on the problem 
by not duplicating that particular information, and have you 
all talked to the USDA about what they are doing so you can 
coordinate?
    Ms. Bennett. That was actually a factor in when we were 
making the decision in terms of how we would make trade-offs 
within those categorical grants working closely with USDA and 
seeing if we might be able to leverage our collective resources 
better.
    Mr. Trimble. Sir, if I may, just so you know, we have an 
ongoing review of the 319 program. And part of the scope of the 
review is to look at coordination with the USDA.
    Mr. Griffith. Let me ask you, in regards to this 
cooperation with the States, is that a real cooperation? Can 
any of you all answer that question for me? Because I just left 
the State legislature about a year ago, and it didn't feel much 
like cooperation when representatives of the EPA came down and 
told us what we were going to do and that we couldn't look 
for--again, as Mr. Terry said earlier and as I pointed out 
earlier, we couldn't look for more cost-effective ways to try 
to achieve the same purpose. We were going to have to follow 
one of two models that the EPA approved. Can anybody answer 
whether or not there is actual cooperation with the States? Or 
is it just being dictated to? Because that is the way I felt in 
Virginia.
    Mr. Trimble. Well, yes. I couldn't answer that, but 
broadly, I think in the 319 program, part of the review will 
look at its implementation and its structure throughout the 
State. So it may indirectly get at your question.
    Ms. Bennett. Mr. Griffith, strengthening the partnerships 
and the relationship with the States and the tribes is one of 
the administrator's seven priorities and one of our aspects in 
our strategic plan, one of the cross-cutting fundamental 
strategies that we have. So we are taking the relationship with 
the States very importantly.
    I know I have had several conversations with the State 
leadership and ECOS, in particular, on these unliquidated 
obligations and how we can move the money faster. So I know as 
the CFO, I am trying to take it very seriously, and the Agency 
has set a very high priority.
    Mr. Griffith. I appreciate that very much. I appreciate you 
all's time today. It has been very helpful. I appreciate the 
chairman having this hearing because I am learning lots, and I 
am new and a lot of these things I haven't heard before, so I 
appreciate it.
    And I yield back my time.
    Mr. Stearns. I thank the gentleman.
    The gentleman from Texas, Dr. Burgess, is recognized for 5 
minutes.
    Mr. Burgess. Thank you, Mr. Chairman.
    I just have a couple follow-up questions on the Title 42 
provisions. Now, Mr. Inspector General, have you studied the 
Title 42 provisions and the number of positions that the EPA is 
now employing under Title 42 guidelines?
    Ms. Heist. No, we have not looked at those.
    Mr. Burgess. Well, and you know Mr. Barton referenced that 
one of the unions was concerned. It is the National Treasury 
Employees Union. In fact, the data I have was supplied to them 
under a Freedom of Information Act request. It is not directly 
from the EPA, though it was the EPA's response to the Freedom 
of Information Act request filed National Treasury Employees 
Union. Well, just for an example, on the--and Ms. Bennett, you 
may not be able to tell us. But the starting salary or the 
salary that would be required to hire someone with a title of 
``research microbiologist,'' what would the typical salary 
range for that be?
    Ms. Bennett. I am not able to say that. I do know that in 
any Title 42 hiring, a very rigorous process is undergone to 
ensure that those individuals are pertinent for that kind of a 
salary. If it is over and above the regular GS or SES 
schedule----
    Mr. Burgess. Did you try? I mean, we are in a recession. 
Everyone talks about, nobody can find a job. Did you try to 
fill it with someone who might be able to accept the normal GS 
scale for that position? Was it necessary to go to a Title 42?
    Ms. Bennett. As you suggested, I am not familiar with each 
individual one. But typically, as I understand, the Title 42s 
are used when other, you know, other avenues have been 
exhausted, and they can't be hired.
    Mr. Burgess. Well, again, I am having difficulty believing 
in this environment, where all the time we hear when people 
cannot find jobs, people are looking and they can't find them, 
I find it hard to believe that the position couldn't even be 
filled with an American citizen. That is troubling.
    Ms. Bennett. I am not familiar----
    Mr. Burgess. Well, I will provide you with some of this 
information, and I would like some of your feedback on that 
because I have been trying to get information on this program 
for quite some time. I recognize that it is occasionally 
necessary to go out and get someone with particular expertise. 
But you know, since your tenure started, it has been what, 
seven people that you have hired under Title 42 provisions, 
essentially doubling the number--almost doubling the number of 
hires under that provision from previous years. So I, again, in 
the worst recession the country has ever known, I would just 
ask the question, can we not find anyone suitably qualified who 
doesn't require the additional payment under Title 42 
provisions? And I will get you that information, and I would 
appreciate your attention to that.
    One other thing has come up, are there dollars that the EPA 
is spending in grants that are delivered to concerns overseas?
    Ms. Bennett. There has been a longstanding practice in the 
Agency and in the administration and several administrations to 
provide grants to some foreign entities.
    Mr. Burgess. But in this budgetary environment, does it 
make sense that we provide millions of dollars in grants to the 
Chinese Government--I mean, they can certainly afford their own 
research--supporting projects related to coal mine methane 
utilization. I mean, it seems like that is something they would 
want to do on their own, and they have got the cash to do it, 
right?
    Ms. Bennett. I won't speak to what the Chinese can and 
can't do. However, I do know that in terms of a longstanding 
practice, that this is--that foreign entities have received 
grants----
    Mr. Burgess. How is that----
    Ms. Bennett. And as well as to help deliver and build 
capacity in order to have a more level playing field for U.S. 
products and services.
    Mr. Burgess. Still, though, it is a stretch to think that 
is helping our constituents directly. The EPA providing 
$150,000 to the International Criminal Police Organization in 
Lyon, France, to promote and strengthen international 
environment enforcement through capacity building. We're 
supposed to be helping them enforce their cap-and-trade law? Is 
that what we are to be doing?
    Ms. Bennett. I am not familiar with the individual grants.
    Mr. Burgess. Well, how about the taxpayer benefit from the 
EPA's hundreds of thousands of dollars of funding Breathe Easy 
Jakarta, a partnership with the government of Jakarta to 
improve their quality management?
    Ms. Bennett. Again, I am not familiar with individual 
grants.
    Mr. Burgess. Sure and we will----
    Ms. Bennett [continuing]. A longstanding practice of many 
administrations.
    Mr. Burgess. Sure. And we will provide you the direct 
things that we are concerned about. We would like responses to 
these because, again, these are questions that we get.
    [The information appears at the conclusion of the hearing.]
    You know, I go home and have a town hall and 300 or 400 
people show up and someone sees one of these stories. These are 
the questions they ask. How can we justify spending--wouldn't 
we be better to make that investment in our air quality here at 
home as opposed to Jakarta, Indonesia?
    Ms. Bennett. It has been a longstanding practice of all--
many administrations to do this kind of funding. I understand--
--
    Mr. Burgess. Well you are the CFO and your recommendation 
to your administrator may be that it is time to concentrate--
what moneys we can spend, it is time to concentrate them here 
at home and not Breathe Easy Jakarta.
    Thank you, Mr. Chairman. I will yield back the balance of 
my time.
    Mr. Stearns. The gentleman yields back.
    And I think we have completed our second round.
    Before I close, I just want to make a comment.
    Ms. Bennett, my understanding is that you have testified 
that with respect to the excess lab issue, the EPA is 
requesting more money in the President's budget to study issues 
concerning the EPA's labs; is that correct?
    Ms. Bennett. In terms of how we should approach the labs in 
terms of the usage and how we best structure them.
    Mr. Stearns. This is even though GAO has already performed 
an audit and issued recommendations to EPA already, isn't that 
correct?
    Ms. Bennett. That is correct.
    Mr. Stearns. So you are saying that the EPA needs to 
spend--needs to ask for more money in order to achieve savings 
from the GAO audit in which they specifically outline ways that 
you could save money, so you are saying this morning, you need 
more money to save money?
    Ms. Bennett. What we are trying to do is make sure that we 
keep in mind science that is being done in each one of those 
labs and that anywhere we might be able to consolidate, if that 
is an appropriate avenue, that we do so with the science in 
mind.
    Mr. Stearns. So, the GAO, though, has already issued 
recommendations, and they have been specific on how to save 
money, and they have done an audit. I would think lots of those 
you could implement, couldn't you implement any of them?
    Ms. Bennett. There are some recommendations that we can 
implement.
    Mr. Stearns. You would need more money under the 
President's budget to do that, that is what you said.
    Ms. Bennett. The money that we are asking for in the 2012 
budget would be a study that is done by the--and reviewed by 
the National Academy of Science to make sure that the science 
that is done in those labs continues to be of the caliber and 
it is not impacted at all.
    Mr. Stearns. It seems to me that you could just run with 
the GAO's recommendation and do a lot of them and save money 
today, but you are not willing to commit to that. You just want 
to say you need more money to save money. So I am a little 
puzzled.
    I ask unanimous consent that the committee's September 15, 
2011, letter to EPA Administrator Jackson on line-by-line 
budget review as well as EPA's October 11, 2011, letter 
response be introduced into the record.
    Without objection, the documents will be so entered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4567.033
    
    [GRAPHIC] [TIFF OMITTED] T4567.034
    
    [GRAPHIC] [TIFF OMITTED] T4567.035
    
    [GRAPHIC] [TIFF OMITTED] T4567.036
    
    [GRAPHIC] [TIFF OMITTED] T4567.037
    
    [GRAPHIC] [TIFF OMITTED] T4567.038
    
    [GRAPHIC] [TIFF OMITTED] T4567.039
    
    [GRAPHIC] [TIFF OMITTED] T4567.040
    
    [GRAPHIC] [TIFF OMITTED] T4567.041
    
    [GRAPHIC] [TIFF OMITTED] T4567.042
    
    [GRAPHIC] [TIFF OMITTED] T4567.043
    
    [GRAPHIC] [TIFF OMITTED] T4567.044
    
    Mr. Stearns. And also to put into the record the 
Environmental Protection Agency's consolidated balance sheet 
that we have talked about all morning.
    By unanimous consent, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4567.045
    
    [GRAPHIC] [TIFF OMITTED] T4567.046
    
    [GRAPHIC] [TIFF OMITTED] T4567.047
    
    [GRAPHIC] [TIFF OMITTED] T4567.048
    
    [GRAPHIC] [TIFF OMITTED] T4567.049
    
    [GRAPHIC] [TIFF OMITTED] T4567.050
    
    [GRAPHIC] [TIFF OMITTED] T4567.051
    
    [GRAPHIC] [TIFF OMITTED] T4567.052
    
    [GRAPHIC] [TIFF OMITTED] T4567.053
    
    Mr. Stearns. I want to thank the witnesses for coming, for 
staying, and their testimony and for the members staying for 
the second round.
    The committee rules provide that members have 10 days to 
submit additional questions for the record to the witnesses.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T4567.054
    
    [GRAPHIC] [TIFF OMITTED] T4567.055
    
    [GRAPHIC] [TIFF OMITTED] T4567.056
    
    [GRAPHIC] [TIFF OMITTED] T4567.057
    
    [GRAPHIC] [TIFF OMITTED] T4567.058
    
    [GRAPHIC] [TIFF OMITTED] T4567.059
    
    [GRAPHIC] [TIFF OMITTED] T4567.060
    
    [GRAPHIC] [TIFF OMITTED] T4567.061
    
    [GRAPHIC] [TIFF OMITTED] T4567.062
    
    [GRAPHIC] [TIFF OMITTED] T4567.063
    
    [GRAPHIC] [TIFF OMITTED] T4567.064
    
    [GRAPHIC] [TIFF OMITTED] T4567.065
    
    [GRAPHIC] [TIFF OMITTED] T4567.066
    
    [GRAPHIC] [TIFF OMITTED] T4567.067
    
    [GRAPHIC] [TIFF OMITTED] T4567.068
    
    [GRAPHIC] [TIFF OMITTED] T4567.069
    
    [GRAPHIC] [TIFF OMITTED] T4567.070
    
    [GRAPHIC] [TIFF OMITTED] T4567.071
    
    [GRAPHIC] [TIFF OMITTED] T4567.072
    
    [GRAPHIC] [TIFF OMITTED] T4567.073
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
